<html>
<title> - H.R.____, ASSISTANCE, QUALITY, AND AFFORDABILITY ACT OF 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
      H.R. -----, ASSISTANCE, QUALITY, AND AFFORDABILITY ACT OF 2010

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 13, 2010

                               __________

                           Serial No. 111-125


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
76-580                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d4b3a4bb94b7a1a7a0bcb1b8a4fab7bbb9fa">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
                 Subcommittee on Energy and Environment

               EDWARD J. MARKEY, Massachusetts, Chairman
MICHAEL F. DOYLE, Pennsylvania       RALPH M. HALL, Texas
JAY INSLEE, Washington               FRED UPTON, Michigan
G.K. BUTTERFIELD, North Carolina     ED WHITFIELD, Kentucky
CHARLIE MELANCON, Louisiana          JOHN SHIMKUS, Illinois
BARON HILL, Indiana                  JOHN B. SHADEGG, Arizona
DORIS O. MATSUI, California          STEVE BUYER, Indiana
JERRY McNERNEY, California           GREG WALDEN, Oregon
PETER WELCH, Vermont                 SUE WILKINS MYRICK, North Carolina
JOHN D. DINGELL, Michigan            JOHN SULLIVAN, Oklahoma
RICK BOUCHER, Virginia               MICHAEL C. BURGESS, Texas
FRANK PALLONE, Jr., New Jersey
ELIOT ENGEL, New York
GENE GREEN, Texas
LOIS CAPPS, California
JANE HARMAN, California
CHARLES A. GONZALEZ, Texas
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas
JIM MATHESON, Utah
JOHN BARROW, Georgia
  


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachussetts, opening statement..............     1
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     3
Hon. Lois Capps, a Representative in Congress from the State of 
  California, opening statement..................................     3
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     4
Hon. Tammy Baldwin, a Representative in Congress from the State 
  of Wisconsin, opening statement................................     5
Hon. Steve Scalise, a Representative in Congress from the State 
  of Louisiana, opening statement................................     6
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, prepared statement..............................    81
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, prepared statement....................    86
Hon. Jim Matheson, a Representative in Congress from the State of 
  Utah, prepared statement.......................................    89
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, prepared statement................................    91

                               Witnesses

Cynthia Dougherty, Director, Office of Water, United States 
  Environmental Protection Agency................................     7
    Prepared statement...........................................     9
    Answers to submitted questions...............................   108
Roger Crouse, Director, Drinking Water Program, Maine Department 
  of Health and Human Services...................................    15
    Prepared statement...........................................    17
    Answers to submitted questions...............................   122
Stephen Estes-Smargiassi, Director of Planning, Massachusetts 
  Water Resources Authority......................................    29
    Prepared statement...........................................    31
    Answers to submitted questions...............................   125
Sarah Janssen, Staff Scientist, Natural Resources Defense Council    38
    Prepared statement...........................................    41
    Answers to submitted questions...............................   126
Steve Levy, Executive Director, Maine Rural Water Association....    21
    Prepared statement...........................................    23
Terry Quill, Quill Law Group, LLC................................    51
    Prepared statement...........................................    54
    Answers to submitted questions...............................   134

                           Submitted Material

Statement of Association of Metropolitan Water Agencies..........    96
Statement of American Society of Civil Engineers.................    98
Statement of American Water Works Association....................   104
Statement of Food & Water Watch..................................   106


   H.R. --------, ASSISTANCE, QUALITY, AND AFFORDABILITY ACT OF 2010

                         THURSDAY, MAY 13, 2010

                              ----------                              

                  House of Representatives,
            Subcommittee on Energy and Environment,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:35 a.m., in 
Room 2322, Rayburn House Office Building, Hon. Edward J. Markey 
[chairman of the subcommittee] presiding.
    Present: Representatives Markey, Inslee, Butterfield, 
Capps, Baldwin, Barrow, Waxman, Upton, Shimkus, Shadegg, Pitts, 
Burgess, Scalise, Griffith, and Barton.
    Staff Present: Greg Dotson, Chief Counsel, Environment and 
Energy Subcommittee; Tracy Sheppard, Senior Environmental 
Counsel; Peter Ketcham-Colwill, Special Assistant; Jacqueline 
Cohen, Counsel; Melissa Cheatham, Professional Staff; Caitlin 
Haberman, Special Assistant; Mitchell Smiley, Special 
Assistant; Lindsay Vidal, Press Assistant; Jerry Couri, 
Minority Professional Staff; and Garrett Golding, Minority 
Legislative Analyst.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Good morning. Welcome to the Subcommittee on 
Energy and Environment.
    We have a very important hearing today. Because when people 
turn on their bathroom or kitchen faucets, they often take for 
granted that an abundant supply of clean water flows freely 
into their taps. It is only when the water stops flowing due to 
a catastrophic failure that attention is given to the 
complexities of providing clean, safe drinking water.
    A prime example of such a catastrophic failure occurred 
just over a week ago in Massachusetts when a breach in a 7-
year-old pipe caused a water supply emergency that affected 
over 2 million residents of Boston and its surrounding areas, 
including a large portion of my congressional district. A boil 
water advisory lasted for several days. People swarmed the Stop 
and Shop and other grocery stores to stock up on bottled water. 
Restaurants and diners had to close because they had no water 
to serve or to wash dishes with. And people had to go through 
Monday without their morning cup of Dunkin' Donuts coffee, 
which resulted in a near riot at the Dunkin' Donuts across from 
my district office in Medford Square. In the Boston papers, the 
entire incident became known as ``Aquapocalypse''.
    Although the MWRA, the agency in charge of this water 
project, could not have anticipated this incident because the 
pipe that broke was so new, public attention immediately turned 
to the need for increased Federal funding for infrastructure 
projects that ensure a safe drinking water supply for years to 
come; and the MWRA did an excellent job in restoring service in 
a very short period of time.
    The reality is that the country's drinking water 
infrastructure is aging rapidly. EPA estimates that over the 
next 20 years water systems will need to invest nearly $335 
billion on infrastructure improvements to ensure safe water to 
our Nation. Water systems simply can't afford to do this on 
their own, and people who are already struggling to pay their 
water bills can't absorb their cost either. We cannot turn off 
the flow of Federal funding for this essential infrastructure 
at a time when our water systems need it most.
    The Assistance, Quality, and Affordability Act that 
Chairman Waxman and I introduced will reauthorize the Safe 
Drinking Water Act State Revolving Fund for the first time 
since its creation in 1996 and will make a number of changes to 
invest in our future. The bill increases water project funding 
from $1.5 billion in 2011 to $6 billion in 2015. This will mean 
that more drinking water projects can be completed and that 
more jobs are created for people who need them. A December, 
2008, report from the U.S. Conference of Mayors estimated that 
every million dollars of drinking water and wastewater 
infrastructure investment directly creates 8.7 jobs. Over the 
next 5 years, our legislation would therefore lead to more than 
100,000 more jobs.
    We have also included a new emphasis on cutting-edge 
projects to allow funding priority to be granted for projects 
that will make drinking water safe and affordable for years to 
come. We will also encourage projects that increase water and 
energy efficiency and projects that anticipate future problems 
and propose repairs before a crisis occurs.
    We have ensured that we are directing resources to those 
who need it most so that water systems serving communities that 
can't afford to pay for the upgrades necessary to comply with 
Safe Drinking Water Act standards are given what they need to 
do.
    We have also included a change in drinking water 
enforcement requirements that will ensure that systems that 
have violated drinking water standards in the past are 
inspected to ensure they stay compliant.
    I would like to thank Congressman Bobby Rush for his work 
in this area following a truly horrific case in the village of 
Crestwood, Illinois, in which people were literally and 
knowingly poisoned by the water they were drinking for decades.
    And, finally, this bill also includes my language to 
strengthen EPA's Endocrine Disruptor Screening Program. 
Endocrine disrupting chemicals are like computer viruses that 
over time can severely disrupt our body's operating system, and 
it is vital that EPA have a more robust and transparent program 
that screens drinking water contaminants to identify the 
chemicals that pose such concerns.
    So I thank all of the witnesses for being here today.
    Let me turn now and recognize the ranking member of the 
subcommittee, the gentleman from Michigan, Mr. Upton.
    Mr. Upton. Thank you, Mr. Chairman.
    I ask unanimous consent that all members put in their 
opening statements as part of the record.
    Mr. Markey. Without objection, so ordered.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you for calling this hearing today.
    Certainly, access to clean and safe drinking water is one 
of the most basic environmental issues. Changes in the Safe 
Drinking Water Act funding allocations and uses must be 
measured not just to what our suggested needs are but also what 
we as Americans can afford. We need to focus our attention on 
those items that help drinking water systems address immediate 
threats, comply with the law, and avoid the unfunded mandate 
issue that bedeviled States and municipalities and drove 
changes to the Safe Drinking Water Act back in 1996.
    In looking at the proposed reforms, we should be 
particularly sensitive to the rate base of various communities, 
particularly rural communities and their ability to afford the 
mandates required of the Act. We need to make sure evaluations 
of cost for feasible treatment, technologies, and techniques 
are appropriate and meaningful when drinking water contaminant 
regulations are issued.
    At a time when increasing debt is a major national and 
global issue, we need to be very careful about overspending and 
overexpanding eligible uses of the Drinking Water State Fund. 
The legislation in front of us authorizes nearly $15 billion 
over the next 5 years. This amount for only 5 years represents 
the entire amount appropriated for Congress for the Drinking 
Water State Revolving Fund over the last 14 years.
    Finally, we need to understand what the new Endocrine 
Disruptor provisions in section 16 mean for EPA's existing 
programs. Program changes should be focused based on good 
science and complement the ongoing public and private 
investments in that effort.
    I yield back my time.
    Mr. Markey. The gentleman's time is expired.
    The chair recognizes the gentlelady from California, Mrs. 
Capps.

   OPENING STATEMENT OF HON. LOIS CAPPS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Capps. Thank you, Mr. Chairman.
    I poured this glass of water, and I am assuming everything 
is safe to drink. It is an essential resource that we take for 
granted.
    When Congress passed the Safe Drinking Water Act, the EPA 
gained the authority to regulate chemicals in our drinking 
water. But even with that authority there is troubling evidence 
that chemicals and other substances are polluting the Nation's 
water supply. Right now, there are more than 140 chemicals in 
our drinking water that EPA does not regulate. These pollutants 
include gasoline additives, pesticides, and even rocket fuel. 
They have proven negative effects on people's health, indeed, 
some can even cause cancer; and we know that infants and 
pregnant women are especially vulnerable to their toxic 
effects.
    Treating these and other emerging pollutants in our 
drinking water is extremely costly. The best way to keep them 
out of the water is to prevent them from getting there in the 
first place; and that is why I am pleased, Mr. Chairman, that 
you have convened this morning's hearing on the Assistance, 
Quality, and Affordability Act, AQUA.
    As others have stated, our drinking water infrastructure is 
aging and in desperate need of upgrading. Unfortunately, it may 
take some serious money to do that. As you mentioned, Mr. 
Chairman, in 2007, EPA estimated $335 billion needed over 20 
years to protect public health and ensure compliance with the 
law.
    AQUA would authorize a much-needed increase in funding for 
the Drinking Water SRF. AQUA also provides incentives for 
public drinking water systems to ensure that they can better 
provide safe and affordable drinking water to their customers 
well into the future.
    Greater weight is given to applications for funding that 
include, for example, measures to improve a system's energy and 
water efficiency or reduce its environmental impact. These are 
the types of projects that many water systems are already 
investing in as they prepare for the impacts of climate change.
    I know there are many more topics that we could bring up in 
my opening statement, and I am looking forward to hear our 
witnesses talking about this in greater detail.
    The legislation before us begins to make the steps and 
changes that we need to do, giving EPA the tools needed to 
protect our children and our communities across the country 
from dangerous water contamination. So I thank you, Mr. 
Chairman, for convening this hearing. I look forward to hearing 
from our witnesses, and I yield back.
    Mr. Markey. I thank the gentlewoman.
    The chair recognizes the gentleman from Pennsylvania, Mr. 
Pitts.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. Thank you, Mr. Chairman. Thank you for convening 
this hearing today on legislation to amend the Safe Drinking 
Water Act.
    Like all of us, I believe it is essential to assure the 
quality of our public water supplies. Here in the United 
States, public water systems must meet extensive regulations, 
and water utility management has become a much more complex and 
professional endeavor. In 2007, the number of community water 
systems reporting no violations of drinking water standards was 
89.5 percent, yet some issues and challenges remain despite 
this progress. It is imperative that we focus our attention on 
matters that help drinking water systems address immediate 
threats and comply with the law.
    As we consider this bill before us, we need to be sensitive 
to the rate bases of various communities and their ability to 
afford the mandates required in the legislation. We also need 
to make sure evaluations of cost for treatment, technologies, 
and techniques are appropriate and meaningful when drinking 
water contaminant regulations are issued.
    Finally, we need to be extremely careful about spending and 
expanding eligible uses of the Drinking Water State Fund. The 
proposed authorization of $14.7 billion over the next 5 years 
is the entire amount appropriated by Congress for the Drinking 
Water State Loan Fund over the last 14 years.
    I look forward to hearing from our witnesses today, and I 
yield back.
    Mr. Markey. The gentleman's time has expired.
    The chair recognizes the gentleman from Georgia.
    Mr. Barrow. I thank the gentleman. I waive an opening.
    Mr. Markey. The gentleman waives his time for an opening 
statement.
    The chair recognizes the gentlelady from Wisconsin, Ms. 
Baldwin.

 OPENING STATEMENT OF HON. TAMMY BALDWIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF WISCONSIN

    Ms. Baldwin. Thank you, Mr. Chairman. I appreciate your 
work on this very important piece of legislation.
    The Safe Drinking Water Act is a critical measure that 
helps to ensure the quality of Americans' drinking water. Our 
Nation's water system serves over 272 million people; and, as 
such, maintaining drinking water infrastructure, improving the 
sustainability and long-term viability of water systems, and 
enforcing drinking water violations are of utmost importance.
    Among the concerns I have as we ensure a safe water supply 
is the presence of prescription drugs and other personal care 
product residues in our water supply. In 2008, the Associated 
Press in a study found pharmaceuticals in the drinking water 
supplies that serve approximately 46 million Americans. A vast 
array of pharmaceuticals, including antibiotics, mood 
stabilizers, and hormones were found in this examination. In my 
district, in particular in Dane County, Wisconsin, traces of 
acetaminophen and hormones have been found in some of the water 
systems. I am concerned that this problem will only increase as 
prescription drugs are used more frequently in American 
society.
    While the concentrations of these pharmaceutical products 
are reportedly quite tiny, little is known about the effect 
these drugs and other personal care product residues have on 
health and the environment. The Federal Government currently 
does not require any testing and has not set safety limits for 
prescription drugs and personal care product residues in water. 
Much research still needs to be done to identify the sources of 
these elements so that we can effectively limit and prevent 
their presence. This bill provides an opportunity for us to 
investigate this further.
    I look forward to hearing from our panel today and their 
thoughts on how we can address prescription drugs in our water 
through this AQUA bill.
    Thank you, Mr. Chairman. I look forward to this hearing.
    Mr. Markey. The gentlelady's time has expired.
    The chair recognizes the gentleman from Louisiana, Mr. 
Scalise.

 OPENING STATEMENT OF HON. STEVE SCALISE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Scalise. Thank you, Mr. Chairman. I appreciate the 
opportunity to discuss the Safe Drinking Water Act. Obviously, 
a clean water supply that is both safe and affordable is 
critical to the public health of our Nation, and I look forward 
to working with this committee as we work to ensure the 
integrity of our drinking water supply.
    I do have concerns with the proposed legislation as it 
stands today, however. Particularly, it is important that we 
make sure that any legislation that we pass is both workable 
and avoids creating duplication of existing efforts. I look 
forward to working with the chairman as we continue to discuss 
the issues of this bill.
    Also, as our unemployment rate hovers near 10 percent, I 
would like to encourage the Democrats who are running Congress 
to focus on finding ways to improve the job outlook in the 
private sector. While government seems to be the only part of 
our economy that is growing and more Federal spending continues 
to reign the day and we see continued growth in the size of the 
Federal Government, families and small businesses in our 
districts are cutting back. So, as Congress refuses to pass any 
kind of budget, American families are having to tighten their 
belts and make tough decisions on how to keep their household 
budgets fiscally responsible and manageable.
    So I would hope as we talk about this legislation and other 
areas where government spending seems to be increasing we need 
to make sure that we are not duplicating efforts and not doing 
things that are going to hurt families out there even more than 
they are already hurting. We need to focus on creating jobs.
    Thank you, and I yield back.
    Mr. Markey. The gentleman's time has expired.
    We move to our first witness. Cynthia Dougherty serves as 
the Director of the Environmental Protection Agency's Office of 
Ground Water and Drinking Water. As Director, Ms. Dougherty 
oversees the Drinking Water State Revolving Fund, which 
provides drinking water systems with funds to finance 
infrastructure improvements that protect human health and 
ensure the safety of our drinking water.
    We welcome you, Ms. Dougherty. Whenever you are ready, 
please begin.

  STATEMENTS OF CYNTHIA DOUGHERTY, DIRECTOR, OFFICE OF WATER, 
 UNITED STATES ENVIRONMENTAL PROTECTION AGENCY; ROGER CROUSE, 
 DIRECTOR, DRINKING WATER PROGRAM, MAINE DEPARTMENT OF HEALTH 
   AND HUMAN SERVICES; STEPHEN ESTES-SMARGIASSI, DIRECTOR OF 
   PLANNING, MASSACHUSETTS WATER RESOURCES AUTHORITY; SARAH 
 JANSSEN, STAFF SCIENTIST, NATURAL RESOURCES DEFENSE COUNCIL; 
STEVE LEVY, EXECUTIVE DIRECTOR, MAINE RURAL WATER ASSOCIATION; 
             AND TERRY QUILL, QUILL LAW GROUP, LLC

                 STATEMENT OF CYNTHIA DOUGHERTY

    Ms. Dougherty. Thank you, Chairman Markey, Congressman 
Scalise, and members of the committee. As you said, I am 
Cynthia Dougherty, the Director of the Office of Ground Water 
and Drinking Water at the U.S. EPA. Thank you for inviting me 
to testify today.
    Administrator Jackson has expressed her commitment for 
ensuring the safety of our drinking water as a fundamental 
element of EPA's overall mission. Strong and reliable drinking 
water infrastructure is an essential component of public health 
protection.
    For more than a decade, the Drinking Water State Revolving 
Fund has supported investment, upgrade, and improvement to 
maintain the Nation's drinking water infrastructure by offering 
public water systems, including small systems, access to 
financing for infrastructure improvements.
    Implementation of the Endocrine Disruptor Screening Program 
is also part of one of Administrator Jackson's top priorities 
to make significant and long-overdue progress in assuring the 
safety of chemicals in our products, our environment, and our 
bodies. Issuing test orders for the generation of data to 
better understand potential endocrine effects is an important 
step in improving our ability to protect the public health and 
the environment from chemicals.
    Under the Drinking Water SRF program, States provide low-
cost loans and other types of assistance to public water 
systems to finance the cost of infrastructure projects needed 
to achieve or maintain compliance with drinking water 
requirements and otherwise improve public health. Since its 
inception, the Drinking Water SRF has provided over $16.2 
billion of Federal and State assistance to over 6,600 projects 
that have improved public health protection for millions of 
people, with almost 40 percent of the assistance and more than 
70 percent of the loans provided to systems serving fewer than 
10,000 people.
    To be sustainable in the long term, a water system must 
have the capacity to address existing needs as well as to be 
prepared for the future so it can continue to provide safe 
water today, tomorrow, and into that future. EPA recognizes our 
responsibility to ensure that all Americans, including those 
served by small water systems and in disadvantaged communities, 
receive safe drinking water.
    The Safe Drinking Water Act currently provides tools to 
support sustainability through the SRF. These include the 
flexibility that States have to use optional set-asides that 
support capacity development and technical assistance. The Act 
also allows States to use up to 30 percent of their 
capitalization grant to provide additional subsidized 
assistance for communities that meet affordability criteria 
established by the State. All but 14 States have used this 
authority at some level over the years for an estimated 19 
percent of the Drinking Water SRF funds.
    Given the accomplishments of the Drinking Water SRF to date 
and funding drinking water infrastructure improvements, there 
is some room to enhance aspects of the program to allow States 
to make better progress in key areas. We need to make sure we 
do that without diminishing the attractiveness to water systems 
of Drinking Water SRF funding. We appreciate the efforts of the 
committee to consider improvements in the program that focus on 
support for small systems and long-term sustainability.
    The proposed legislation would also amend provisions of the 
Act related to the Endocrine Disruptor Screening Program. 
Public health protection from contaminants that may be in 
drinking water is of the highest priority for the EPA. By 
providing information to help us better understand potential 
endocrine effects of these chemicals, test orders issued 
through the screening program will be an important step in 
improving our ability to protect public health and the 
environment.
    Under the requirements of the Food Quality Protection Act, 
we have already issued test orders covering 67 different 
pesticides chemicals; and, as instructed by the House 
Appropriation Committee this past year, EPA is preparing a 
second list of no less than 100 chemicals that will be drawn 
from the National Primary Drinking Water Regulations, the 
Contaminant Candidate List, and pesticides that are on the re-
registration schedule for 2007 through 2008. We expect to begin 
issuing those test orders shortly and have that list out as 
well.
    We look forward to working with the committee to continue 
our efforts to more effectively implement the screening 
program. Thank you very much.
    [The prepared statement of Ms. Dougherty follows:]

    [GRAPHIC] [TIFF OMITTED] T6580A.001
    
    [GRAPHIC] [TIFF OMITTED] T6580A.002
    
    [GRAPHIC] [TIFF OMITTED] T6580A.003
    
    [GRAPHIC] [TIFF OMITTED] T6580A.004
    
    [GRAPHIC] [TIFF OMITTED] T6580A.005
    
    [GRAPHIC] [TIFF OMITTED] T6580A.006
    
    Mr. Markey. Thank you, Ms. Dougherty, very much.
    Our next witness, Roger Crouse, serves as the Director of 
the State of Maine Drinking Water Program, overseeing field 
inspection, operator licensing, and administration of the 
Drinking Water State Revolving Fund. Mr. Crouse is a licensed 
professional engineer with a master of science degree in civil 
engineering from Brigham Young University.
    Welcome, sir.

                   STATEMENT OF ROGER CROUSE

    Mr. Crouse. Thank you, Mr. Chairman and members of the 
committee.
    I am Roger Crouse, the Drinking Water Administrator from 
the State of Maine with responsibility for both the State's 
Drinking Water Program and the State's Drinking Water State 
Revolving Fund. I am representing the Association of State 
Drinking Water Administrators and appreciate this opportunity 
to offer testimony today on this important subject.
    We applaud the efforts of the committee to reauthorize the 
SRF portions of the Safe Drinking Water Act. The basic 
provisions of the Act have served us well for the past 13 
years, but we appreciate many of the proposed changes the 
committee has included in this draft bill. Our reaction to the 
package, taken as a whole, is quite positive. However, several 
of the provisions will be challenging and resource-intensive 
for States to implement. Our perspectives on key provisions of 
the bill are as follows:
    Competitive Contracts: We believe that changes contemplated 
should take place at the national level and believe the bill 
needs to be clarified in this regard. We would object to this 
provision if it is intended to apply to technical assistance 
contracted issued by States, because such a restriction could 
take away the State's ability to hire the best qualified third-
party technical assistance providers.
    Davis-Bacon Provisions: States are split on this element of 
the draft bill. States with comparable provisions in their 
State laws recommend adding a phrase acknowledging that a State 
may satisfy Davis-Bacon requirements by implementing comparable 
and equivalent State prevailing wage rate laws. Other States 
feel that Davis-Bacon provisions unnecessarily inflate the cost 
of drinking water infrastructure projects.
    Lists of Systems with Variances, Exemptions, or Persistent 
Enforcement Violations: It doesn't serve a practical purpose to 
include a system with a variance exemption or persistent 
violation in a State's Intended Use Plan if the system has not 
expressed an interest in participating in the SRF. We recommend 
that this provision be changed to only require this information 
for systems wishing to participate in the loan fund.
    Priority for Disadvantaged Systems Out of Compliance: We 
support the approach of allowing States, rather than EPA, to 
make and apply disadvantaged system definitions. However, the 
evaluation criteria provision will be challenging for States to 
implement because of the need to determine the affordability of 
new standards. While some States have longstanding 
disadvantaged system programs, this will be a new requirement 
for many that will need to be carefully administered.
    Weight Given to Applications--General Observations: We 
believe the various weighting factors listed in the draft bill 
are a sound and appropriate set of considerations. Nonetheless, 
States will be challenged to develop new methods of assessing 
managerial and financial stability and to adjust the SRF 
scoring systems accordingly.
    Weight Given to Applications--Green Projects: States 
support energy and water conservation projects and continue to 
seek those projects in SRF applications. We appreciate that 
green projects would be considered in the bill in terms of a 
weighting factor, rather than as a mandatory percentage, as was 
the case under ARRA.
    Four Percent for Disadvantaged Communities: States 
generally agree with this requirement to use 4 percent of their 
funds on disadvantaged communities, and many are doing so now.
    Changes to State Set-Asides: States very much appreciate 
that the bill would increase the administrative set-aside from 
4 to 6 percent. We also appreciate removal of the 100 percent 
match for 10 percent State Program Management Set-Aside.
    Although not a feature of the current version of the 
proposed bill, we recommend that States be allowed to use the 
15 percent Set-Aside on State source water protection 
activities in addition to the assessment activities, as the 
Safe Drinking Water Act currently provides.
    Realloted Funds for Disproportionally Impacted Systems: 
States generally support this provision. However, many States 
don't currently have staffing, tools, or expertise to evaluate, 
identify, and track the impact on each disadvantaged system.
    Prescriptive Inspection Requirements: States generally do 
not support this provision and prefer the existing framework of 
escalating enforcement responses, including inspections, where 
appropriate, to return facilities to compliance. The 
requirement envisioned will have resource implications in terms 
of additional staff time and documentation and not necessarily 
produce the intended results.
    Definition of Lead Free: States believe manufacturers have 
already adjusted to the proposed new definition. Some States' 
laws would need to be changed. However, revisions to State laws 
are not expected to be a major undertaking.
    These are our views on selected provisions. We have 
provided a more detailed version of these comments to committee 
staff. This committee is on the right track with this draft 
bill.
    I would be happy to answer any questions you may have about 
our perspective on the bill or how States administer the 
Drinking Water State Revolving Fund program.
    Thank you.
    [The prepared statement of Mr. Crouse follows:]

    [GRAPHIC] [TIFF OMITTED] T6580A.007
    
    [GRAPHIC] [TIFF OMITTED] T6580A.008
    
    [GRAPHIC] [TIFF OMITTED] T6580A.009
    
    [GRAPHIC] [TIFF OMITTED] T6580A.010
    
    Mr. Markey. Thank you, Mr. Crouse, very much.
    Our next witness is Steven Levy. He is the Executive 
Director of the Maine Rural Water Association and the Atlantic 
States Rural Water Association, which serves Rhode Island and 
Connecticut. He has over 30 years of experience in the 
financing and organization of water systems.
    Welcome, sir.
    Mr. Levy. I am not very good with technology.
    Mr. Markey. With the exception of water technology, 
hopefully.

                    STATEMENT OF STEVEN LEVY

    Mr. Levy. Well, I am better with money than technology.
    Good morning, Mr. Chair and committee members. Thank you 
for the opportunity to testify.
    As said earlier, I have worked for over 30 years for the 
Maine Rural Water Association and Atlantic States Rural Water 
Association, and I focus more on funding than on technology.
    I am here today representing over 24,000 community members 
in the National Rural Water Association. As you know, when it 
comes to providing safe water and compliance with Federal 
standards, small and rural communities have a difficult time 
due to their limited customer base. This is compounded by the 
fact that these communities often have low or medium household 
incomes and higher water rates compared to larger communities. 
As a result, the cost of compliance is dramatically higher for 
small systems on a per-household basis. However, the vast 
majority of U.S. water supplies are small. Ninety-two percent 
of the country's 52,000 community water supplies serve less 
than 10,000 people.
    We want to thank the committee for the important new policy 
directions in the Assistance, Quality, and Affordability Act, 
your SRF authorization bill that, if enacted, will improve the 
current program.
    The proposed bill increases the role of technical 
assistance in the Nation's drinking water safety program. Its 
reliance and recognition of technical assistance will ensure 
small communities will have access to technical resources 
needed to operate and maintain water infrastructure, comply 
with standards in an economical way, and obtain assistance in 
applying for State Revolving Loan Funds.
    The NRWA technical assistance effort is truly unique in the 
Federal system to protect public health because it accomplishes 
progressive environmental protection with the support of the 
local community. Without these initiatives, the effective 
implementation of the Safe Drinking Water Act in our rural and 
community water supplies would be nearly impossible.
    The need for rural water systems continues to increase with 
the expansion of Federal water regulations. The bill includes 
new provisions for solving two of the most pressing and 
intractable issues in the current drinking water program: 
affordability of the rules in disadvantaged communities and 
ensuring SRF funding is targeted to the most needy communities.
    Communities exhibiting the greatest need should receive 
funding first. Commonly, low-income communities do not have the 
ability to pay back a loan, even with very low interest rates, 
and require some portion of grant or principal forgiveness 
funding to make a project affordable to the ratepayers.
    The proposed bill retains key elements that ensure 
targeting of funding to the most needy communities, including a 
minimum set-aside for small systems, a disadvantaged community 
subsidy, and a prioritization for the most serious risk to 
human health.
    The 1996 Act grants States considerable discretion in the 
operation of their revolving loan fund with regard to providing 
principal forgiveness and defining disadvantaged communities 
and in targeting funds. As a result, there is a great variety 
in their programs throughout the country.
    The proposed bill recognizes small system funding 
constraints in the newly drafted provisions contained in 
section 8 and section 7.
    The Priority and Weight of Application section includes a 
process for States to consider affordability of new standards, 
which we support. We urge you to consider applying this 
provision to all existing standards because many of the current 
standards are resulting in affordability problems.
    The new Disadvantaged Communities section targets SRF 
funding to the systems identified in a new IUP approach. We 
support these innovative provisions.
    We urge the committee to reconsider a provision in section 
8 regarding the proposal to allow funding a portion of the 
system under the Disadvantaged provision of the SRF. This 
fundamentally changes the relationship between a primary agency 
and a regulated water system. This proposal could also serve as 
a disincentive for water systems to view their systems as a 
whole and may in fact generate reverse cherry-picking for 
infrastructure replacement.
    Finally, we ask the committee to please consider including 
an Etheridge bill type provision to attempt to direct technical 
assistance funding to be most beneficial to small communities.
    As currently written, the bill would retain the current 
process where EPA chooses not to fund the most effective and 
beneficial drinking water safety assistance initiatives for 
small communities but instead fund other EPA priorities. 
Representative Etheridge's bill requires EPA to weigh what 
small communities believe is most beneficial when making 
decisions on providing assistance to them. This seems only 
reasonable in making assistance the most beneficial.
    Thank you again, Mr. Chairman, and members of the 
committee, for this opportunity to testify today. I look 
forward to answering any questions.
    And in my last two seconds, I want to thank Maine for being 
such a strong advocate for rural water systems. They have done 
a fabulous job.
    [The prepared statement of Mr. Levy follows:]

    [GRAPHIC] [TIFF OMITTED] T6580A.011
    
    [GRAPHIC] [TIFF OMITTED] T6580A.012
    
    [GRAPHIC] [TIFF OMITTED] T6580A.013
    
    [GRAPHIC] [TIFF OMITTED] T6580A.014
    
    [GRAPHIC] [TIFF OMITTED] T6580A.015
    
    [GRAPHIC] [TIFF OMITTED] T6580A.016
    
    Mr. Markey. Maine has done a great job. And Massachusetts 
did a good job in breaking off Maine and making it a State in 
1820 as part of the Missouri Compromise, where Maine would have 
two Senators opposed to slavery and Missouri would have two 
Senators in favor of slavery. So Maine was part of 
Massachusetts, and we are very proud of how well they have done 
since we broke them up.
    So let's move to our next witness.
    Stephen Estes-Smargiassi is the Director of Planning at the 
Massachusetts Water Resources Authority, where he has worked 
for 23 years. I want to note that I have the third-most Italian 
of 435 congressional seats.
    He is an engineer and planner with a bachelors of science 
in civil engineering from MIT and a masters in planning from 
Harvard University.
    Stephen and the rest of the MWRA team have had their hands 
full addressing the recent water main break in the greater 
Boston area and taking all of the corrective actions necessary.
    I can imagine how valuable your time is right now, so we 
very much appreciate your being here. Thank you.

             STATEMENT OF STEPHEN ESTES-SMARGIASSI

    Mr. Estes-Smargiassi. Good morning. I am Steve Estes-
Smargiassi, Director of Planning at the MWRA in Boston.
    MWRA is the wholesale water supplier to 61 cities and towns 
in eastern and central Massachusetts, serving about 2.8 million 
people. We are an active member of the American Water Works 
Association and the Association of Metropolitan Water Agencies. 
MWRA appreciates the opportunity to testify here this morning 
on the Assistance, Quality, and Affordability Act of 2010.
    As Chairman Markey has indicated, MWRA experienced a major 
water supply emergency 2 weeks ago. While the causes of the 
incident won't be known for some time, as the full-scale 
investigation is really just in its infancy, I can certainly 
say that it galvanized public attention on the value of water 
supply infrastructure.
    We all take for granted, even those of us in the business, 
that when we open the tap a plentiful supply of safe drinking 
water will flow. Only when it stops flowing or when we tell 
people they have to boil it do we stop to think about how much 
goes into turning rainwater into drinking water.
    Two Saturdays ago, a major leak erupted on a 120-inch steel 
pipe connecting two major tunnels. The pipeline was part of a 
new project, a new tunnel system built to enable us to take the 
now 7-decade-old Hultman Aqueduct out of service for inspection 
and repairs. We, fortunately, were able to reroute water around 
the break, activate emergency sources and a pump station using 
facilities and plans developed over the last decade to ensure 
that our customers had water for flushing toilets, fighting 
fires, and, with the serious inconvenience of having to boil 
it, drinking and cooking. In less than 2 days we were able to 
make the repair to the pipeline, and before 4 days had elapsed 
Governor Patrick was able to lift the boil water order for our 
system.
    MWRA, like many older urban areas, has a significant amount 
of older piping. In 1985, when we were created, over half of 
our pipe was over 80 years old; a fifth of our pipe was over 
100 years old. Aging facilities can contribute to degradation 
of water quality, including aesthetic concerns, problems with 
compliance with distribution system water quality rules, and 
increased frequency of leaks and breaks.
    Inclusion of replacement and rehabilitation of aging 
facilities as an eligible SRF item will assist utilities in 
maintaining and improving system water quality all the way to 
the tap, while helping to control costs to our repairs.
    MWRA is fortunate that the Commonwealth of Massachusetts 
has a forward-looking environmental agency overseeing the SRF. 
Our State Department of Environmental Protection has already 
added green infrastructure and an emphasis on rehabilitating 
old water and sewer assets to the program guidelines, and we 
have been able to fund a significant number of projects through 
that. We are here today in support of this bill because that 
increased funding flexibility and focus on aging water assets 
should be available to systems nationwide.
    The SRF program has proven to be an important component of 
managing the MWRA's cost of capital. We have realized debt 
service savings of over $700 million since our 1993 program.
    It is difficult for any utility to sustain support for 
yearly rate increases sufficient to fully cover the need to 
rehabilitate aging infrastructure, and this legislation's 
expansion of the SRF eligibility will help communities afford 
well-maintained water systems.
    Switching gears, I would like to say lead in drinking water 
is the number one water quality concern for our customers. 
While there is no lead in our source water, consumers can have 
lead leach out of their home plumbing. After the Lead and 
Copper Rule was issued by EPA in 1991, we moved rapidly to 
build modern corrosion treatment; and, as a result, our lead 
levels have dropped by almost 90 percent.
    You undoubtedly recall the Washington, D.C., lead issues of 
several years ago. A common theme which arose out of the 
efforts to understand and respond to that issue was the fact 
that common plumbing fixtures, such as faucets and drinking 
water fountains, could leach excessive amounts of lead and 
still be available for sale and use under current Federal law. 
The Safe Drinking Water Act defines lead free as up to 8 
percent lead in a brass component. This is simply wrong and 
should be remedied as soon as possible. However, to date, no 
Federal action on the allowable amount of lead in brass has 
occurred, and only two States have taken the necessary 
legislative action to resolve the outrage that a consumer can 
walk into a home improvement center and buy a fixture that may 
poison his or her child. California and Vermont now mandate 
that no more than one-quarter of 1 percent brass be lead. 
Making that national would make a big step forward, ensuring 
sure access to safe products and safe water for all Americans.
    In conclusion, MWRA utilities across the country must make 
difficult choices in determining the best ways to spend limited 
ratepayer funds because our needs far exceed our ability to 
raise rates. Adequate funding and flexibility to move forward 
will help us meet those critical needs.
    Thank you.
    [The prepared statement of Mr. Estes-Smargiassi follows:]

    [GRAPHIC] [TIFF OMITTED] T6580A.017
    
    [GRAPHIC] [TIFF OMITTED] T6580A.018
    
    [GRAPHIC] [TIFF OMITTED] T6580A.019
    
    [GRAPHIC] [TIFF OMITTED] T6580A.020
    
    [GRAPHIC] [TIFF OMITTED] T6580A.021
    
    [GRAPHIC] [TIFF OMITTED] T6580A.022
    
    [GRAPHIC] [TIFF OMITTED] T6580A.023
    
    Mr. Markey. Thank you very much.
    Our next witness is Sarah Janssen, who is a staff scientist 
in the Health and Environment Program of the Natural Resources 
Defense Council. She is board certified in preventive medicine, 
with a subspecialty in occupational and environmental medicine. 
Dr. Janssen is also an assistant clinical professor at the 
University of California-San Francisco in the Division of 
Occupational and Environmental Medicine.
    So we welcome you. Whenever you are ready, please begin.

                   STATEMENT OF SARAH JANSSEN

    Dr. Janssen. Thank you.
    Good morning, Chairman Markey and other members of the 
committee. My name is Dr. Sarah Janssen. I am a staff scientist 
in the health program at NRDC, and I am representing NRDC here 
today. I am also a practicing physician and also trained as a 
reproductive biologist with expertise in endocrine-disrupting 
chemicals.
    My oral testimony to you this morning will focus on 
improvements to the Endocrine Disruptor Screening Program, or 
the EDSP, as proposed in this legislation.
    Endocrine disruption was first described in the early 1990s 
when chemical contamination in water was linked to feminized 
male fish, alligators with small penises, and impaired 
reproduction in birds. These abnormalities were caused by 
endocrine disruption contaminants; and subsequent studies in 
laboratory animals have confirmed that exposure to some 
endocrine-disrupting chemicals, especially early in 
development, can result in a wide range of adverse effects, 
including reproductive harm, cancer, and altered development of 
the brain.
    The effects described in wildlife and laboratory animals, 
coupled with observations of reproductive harm, including birth 
defects of baby boy genitals, poor sperm quality, infertility, 
and altered development of the brain in humans, have raised 
concern that endocrine-disrupting chemicals could also be 
harming human health.
    Though EPA has not yet prioritized drinking water 
contaminants in the implementation of the long-delayed EDSP, 
recent scientific studies have documented multiple endocrine-
disrupting contaminants in our Nation's waterways. A recent 
USGS surface water study found an average of seven and as many 
as 38 chemical contaminants in any given water sample. Among 
the chemicals most commonly detected in this national survey 
are known and suspected endocrine-disrupting chemicals, 
including various pesticides, antibacterials, detergents, 
cosmetics, fragrances, plastics, rocket fuel, and steroid 
hormones.
    In addition, there are potentially hundreds of other 
chemical contaminants for which we have no information about 
their endocrine-disrupting potential. This legislation will 
begin to solve this problem by requiring EPA to expand the EDSP 
to include water contaminants.
    AQUA will strengthen the EDSP by requiring four major and 
necessary changes. Number one is testing of drinking water 
contaminants on a reasonable and achievable timeline. Under the 
proposed legislation, EPA will publish a list of 100 drinking 
water contaminants within 1 year and require that they be 
screened within 4 years. This is a realistic time frame since 
EPA has recently issued test orders for just 67 chemicals with 
test results expected in 2 years.
    The Act further requires EPA to identify and schedule 
testing of other substances, including all of the chemicals on 
the preliminary Contaminant Candidate List within 10 years of 
enactment. Again, this represents an average of less than 60 
chemicals a year for issuing test orders and should be easily 
within EPA's capabilities. The legislation will also prioritize 
testing of substances that pose the greatest threat to the 
health of vulnerable populations.
    The second improvement is a fast track for substances known 
or suspected of endocrine-disrupting effects. EPA can place the 
screening of these substances on an accelerated track by 
substituting scientifically relevant information, such as 
scientific studies published in peer-reviewed publications. 
This provision is necessary to prevent redundancy in testing 
for known endocrine disruptors such as perchlorate, where the 
mode of action has already been well described and there is 
evidence for widespread contamination of drinking water and of 
people.
    Perchlorate is a component of rocket fuel and is known to 
interfere with thyroid hormone production by inhibiting the 
uptake of iodide. In fact, perchlorate was once used as a 
prescription medication to treat patients with elevated thyroid 
levels. Chemicals as well studied as perchlorate should not be 
subject to repeat and redundant testing that will cost only 
more time and money and delays in regulation.
    A third improvement is increased transparency and public 
participation in the EDSP by creating a publicly searchable 
database, a public petition process for requesting test orders 
of potential endocrine-disrupting chemicals, and opportunities 
for public comment, all of which are necessary for informing 
and engaging the public in the progress and process of testing 
for endocrine disruptors.
    The fourth and final improvement that I want to highlight 
today is updating and revising the testing protocols to be 
consistent with our current scientific knowledge. The screening 
and testing protocols required under the current EDSP are 
outdated, time consuming, and expensive. EPA should be able to 
replace these screens with newer, more efficient, and less 
expensive tests which rely less on the use of animals. EPA 
should also expand the EDSP to include endpoints beyond 
estrogen, androgen, and thyroid hormones.
    The need to expand and improve the EDSP has been called for 
by EPA's own science advisory panel and prominent scientific 
societies, such as the Endocrine Society, the American Medical 
Association, and the American Chemical Society.
    In conclusion, AQUA will provide much-needed improvements 
to the EDSP by making it more relevant to known sources of 
exposure of endocrine-disrupting chemicals in drinking water, 
more transparent and understandable to the public, and more 
scientifically valid by updating and revising the protocols to 
be consistent with our current scientific knowledge base.
    We commend Mr. Markey for taking a leadership role in 
protecting the public's health by identifying endocrine 
disruptors in our drinking water, and we look forward to 
working with you and your staff as this bill moves forward.
    Thank you for inviting me to testify today, and I would be 
happy to answer your questions.
    [The prepared statement of Dr. Janssen follows:]

    [GRAPHIC] [TIFF OMITTED] T6580A.024
    
    [GRAPHIC] [TIFF OMITTED] T6580A.025
    
    [GRAPHIC] [TIFF OMITTED] T6580A.026
    
    [GRAPHIC] [TIFF OMITTED] T6580A.027
    
    [GRAPHIC] [TIFF OMITTED] T6580A.028
    
    [GRAPHIC] [TIFF OMITTED] T6580A.029
    
    [GRAPHIC] [TIFF OMITTED] T6580A.030
    
    [GRAPHIC] [TIFF OMITTED] T6580A.031
    
    [GRAPHIC] [TIFF OMITTED] T6580A.032
    
    [GRAPHIC] [TIFF OMITTED] T6580A.033
    
    Mrs. Capps [presiding]. Thank you for your testimony, Ms. 
Janssen.
    For our last witness, we now turn to Terry Quill. Mr. Quill 
is an attorney and has 15 years of experience representing the 
chemical and pesticide industries on legal and technical issues 
related to enactment of endocrine testing provisions of the 
Food Quality Protection Act and EPA's development and 
implementation of its Endocrine Disruptor Screening and Testing 
Program.
    In addition to his law degree, Mr. Quill has masters 
degrees in biology and toxicology from Wayne State University 
and the University of Michigan, respectively.
    And you are now recognized for 5 minutes of testimony, Mr. 
Quill.

                    STATEMENT OF TERRY QUILL

    Mr. Quill. Thank you. I want to thank the committee for 
inviting me to testify today.
    I have been involved in endocrine issues, including issues 
related to development and implementation of EPA's EDSP, for 
well over 15 years. Much of my legal practice centers on 
regulatory science, and I often deal with issues concerning 
statutory interpretation. So when I look at the legislation 
today, I try to think ahead to issues concerning how this will 
be interpreted and used in the future.
    In that regard, my written testimony lays out a number of 
improvements that I believe could be made to the legislation. 
However, I do want to commend the committee for drafting a bill 
that in many respects is reasonable, calls for the use of 
scientifically relevant information--although I will mention a 
few points concerning that--directs EPA to develop a weight of 
evidence process--we have been asking EPA to do that for years 
now, and I think that needs to be done soon--directs EPA to 
assess and update screening assays--EPA intends to do that, we 
have been also asking them to do that--and provides for cost 
sharing. EPA has been reluctant to apply those provisions to 
non-pesticide chemicals.
    My written testimony suggests a few ways in which I believe 
the bill can be improved to best ensure the use of best 
available science, and I would like to just highlight a few of 
the issues I raise in my written testimony.
    First, I believe that the requirement that EPA publish a 
list of 100 drinking water contaminants within 1 year and 
require that EPA order screening of 25 of those chemicals per 
year appears reasonable. However, I think it could turn out to 
be more challenging to EPA than many think, but I will leave 
that to EPA to comment on that.
    My only concern with that is the idea of the EDSP, as it 
currently is, is that, initially, EPA would require testing 67 
chemicals that would be assessed to improve the battery. One 
thing that I think the committee needs to understand is that 
there is still great uncertainty regarding how the assays will 
perform and how the battery in general will perform. In many 
senses, this first round of screening is to validate the assays 
in the battery. With this bill, we have may have two more 
rounds of orders before we even have a chance to review the 
performance of the assays. That is why in my written testimony 
I suggest it would be better if additional testing didn't 
commence for 2 years.
    What really needs to happen in the next year is EPA needs 
to develop the weight of evidence approach, it needs to develop 
a procedure for updating its screening battery, and it needs to 
develop procedures for considering other scientifically 
relevant information. That needs to be done right away.
    Second, I outline in my written testimony basic scientific 
principles that I believe are applicable to endocrine 
screening. I have tried to point out areas in the bill where 
those principles are especially applicable. My general concern 
is that too often in this endocrine debate there has been a 
failure to, one, consider all the data; secondly, to assess the 
reliability of the data--and that goes to the three basic 
scientific principles I outline; and determine the relevance of 
the data. Too often, we see individuals take just a piece of 
information, maybe some molecular data or biochemical data, and 
then apply to that a hypothesis for how this is relevant to 
adverse effects in humans and then not bother trying to test 
that hypothesis but instead evoke the precautionary principle 
to move right to regulation. Well, that is not how we regulate 
in this country; and I would be greatly concerned if this bill 
reflected any of that thinking.
    Richard Sharpe, one of the leading researchers on endocrine 
disruptors, has put it pretty well. He says that we should stay 
true to the scientific method and not to strong convictions. I 
think that that is what we need to do in this bill and 
throughout the process.
    In regards to the bill itself, let me give just a few 
examples of how basic scientific principles might be applied.
    While I support the bill's call for the use of 
scientifically relevant information, I am concerned that, 
unless that information is required to comport with minimum 
criteria for reliable and relevant scientific information, the 
term ``scientifically relevant information'' can mean almost 
anything. Without some objective measure, you can just 
basically put anything up as relevant scientific information. 
That is why I laid out the principles that might be applied.
    This concern also applies to otherwise reasonable 
provisions, such as the provision to accelerate the 
identification of substances for which it will be necessary to 
identify suspected endocrine disruptors. Well, what is a 
suspected endocrine disruptor? What kind of data are we going 
to rely on to determine that? Well, we need some kind of 
objective principles applied to that, also. I think the bill 
would be ideal if it could talk to that point and make sure 
that it is understood that this science has to be objective. 
There needs to be a procedure for assessing it.
    Finally, I would like to express what was my major concern, 
that the bill might be interpreted as suggesting that it is 
appropriate to base chemical regulation on a mode or mechanism 
of action, such as the interaction with the endocrine system. 
Chemical regulation in the United States is typically based on 
the potential for a substance to cause a harm or an adverse 
effect.
    My concern is derived from three things: First of all, the 
definition of endocrine disruption, which doesn't even address 
the concept of harm. Secondly, the provision that requires EPA 
to determine whether to take administrative action based on 
testing, and testing in the bill includes screening.
    Mrs. Capps. Mr. Quill, your time is up.
    Mr. Quill. OK. I will finish then.
    So my concern is that the bill suggests that screening data 
can lead to regulation, and that concerns me.
    Thank you very much.
    [The prepared statement of Mr. Quill follows:]

    [GRAPHIC] [TIFF OMITTED] T6580A.034
    
    [GRAPHIC] [TIFF OMITTED] T6580A.035
    
    [GRAPHIC] [TIFF OMITTED] T6580A.036
    
    [GRAPHIC] [TIFF OMITTED] T6580A.037
    
    [GRAPHIC] [TIFF OMITTED] T6580A.038
    
    [GRAPHIC] [TIFF OMITTED] T6580A.039
    
    [GRAPHIC] [TIFF OMITTED] T6580A.040
    
    Mrs. Capps. Thank you, Mr. Quill.
    Before we begin with questions, I would like to ask 
unanimous consent to include several letters and statements 
that we have received on this legislation, to include these in 
the record.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mrs. Capps. I will begin with my questions, and I am going 
to turn first to Ms. Dougherty.
    Currently, EPA is exploring whether to develop a drinking 
water standard for perchlorate. Some are arguing that EPA 
should stop this work. For example, one argument is made that 
the thyroid effect caused by perchlorate is also sometimes 
caused by eating foods, and so addressing the contaminant in 
drinking water might not even eliminate the risk.
    Now, let me draw a parallel. EPA currently has a drinking 
water standard to ensure that there aren't harmful levels of E. 
coli in drinking water, even though E. coli can also be found 
in food. Do you think EPA should rescind its E. coli drinking 
water standard because it can also be found in food?
    Ms. Dougherty. No.
    Mrs. Capps. Some people also say that pregnant women could 
just take iodine supplements to prevent the adverse health 
effects caused by perchlorate. Do you think that EPA should 
stop regulating E. coli in drinking water and instead advise 
people to just take antibiotics to prevent E. coli infections?
    Ms. Dougherty. No.
    Mrs. Capps. So, just to sum up, even though the health risk 
may exist in more than just drinking water--and medication 
could be used to treat that health risk--you would agree that 
those are not reasons why EPA should cease its efforts to 
regulate perchlorate.
    Ms. Dougherty. I would agree that it is not necessarily the 
reason to do that.
    Mrs. Capps. Thank you.
    Mr. Estes-Smargiassi, a study released last year by the 
Association of Metropolitan Water Agencies and the National 
Association of Clean Water Agencies found that the Nation's 
drinking water systems alone would need $692 billion through 
2050 to adapt their operations and their infrastructure to the 
impacts of climate change. AQUA directs States to give greater 
weight to Drinking Water SRF applications if the system 
improves its efficiency or reduces its environmental impact 
through measures like increased water efficiency or 
conservation, greater source water protections, and actions to 
develop sustainable energy on site. Do you believe that these 
types of projects will help water systems prepare for the 
impacts of climate change?
    Mr. Estes-Smargiassi. All of those things increase our 
flexibility and should make it easier for systems to adapt to 
climate change, yes.
    Mrs. Capps. Are there some additional types of projects 
that you would like to list that would help you do this?
    Mr. Estes-Smargiassi. I would say what we can use from EPA 
and from the Federal Government is more detailed information, 
more research on the specific impacts for every use system. It 
is very different from place to place. So maybe not projects, 
because I can't say what any individual system would require, 
but information and technical assistance would help us move 
that forward.
    Mrs. Capps. Thank you very much.
    And I turn now to Mr. Levy.
    Several government reports have concluded that climate 
change will lead to increased heavy precipitation events in the 
Northeast and rising sea levels along the coast. What is Maine 
Rural Water Association or other rural water agencies doing to 
prepare for these impacts and how can the Federal Government 
help, either through Drinking Water SRFs or some other program?
    Mr. Levy. That is an interesting question. As you know, we 
have about 3,000 miles of coastline in Maine. I would say that 
climate change will probably be less of an issue for water 
systems typically because the water supplies aren't located 
next to the ocean. That being said, the wastewater facilities 
are often discharging into the ocean and in fact are often 
located nearby. So I would say that the clean water SRF fund 
would be a very, very valuable source of funding to help them 
either to move or to protect their resources due to climate 
change.
    Mrs. Capps. Thank you very much. Your prompt answers are 
allowing me to ask another question, and I can turn to Dr. 
Janssen.
    My State has defined, the State of California--I am not Mr. 
Markey, by the way. I am Mrs. Capps, from a different 
coastline, where we are impacted by climate change as well. My 
State has defined lead free as 0.25 percent lead content, 
rather than the extraordinarily high 8 percent lead content 
currently permitted under the Safe Drinking Water Act. The AQUA 
Act adopts this 0.25 percent lead content standard. You are 
from California as well. In your opinion, why is it 
unacceptable to define lead free as containing no more than 8 
percent lead content?
    Dr. Janssen. Thank you for your question.
    We know that lead is a potent neurotoxin which has strong 
neurodevelopmental impacts, especially in babies and infants 
who are exposed to that. So, therefore, we really worry about 
even very low levels of exposure. So 8 percent might not seem 
like very much, but, in actuality, it is a level of lead 
exposure that could cause a loss of IQ points, a change in 
behavior, impairments in learning and memory. And so 0.25 
percent is a much better level of exposure than a much higher 
percentage.
    Mrs. Capps. Thank you.
    Mr. Crouse, I am over time, but would you offer two words 
in response to that? Do you agree or disagree?
    Mr. Crouse. We agree.
    Mrs. Capps. Two words. Thank you very much.
    And now I turn to Mr. Scalise for questions.
    Mr. Scalise. I thank the chairman.
    For Dr. Janssen, right now, in an ideal world, of course, 
we would have unlimited resources to address potential health 
issues, such as aging drinking water systems. I don't think 
anybody up here would disagree with that. However, we are most 
decidedly not living in an ideal word, and we have very limited 
resources. According to a report yesterday, the Federal 
Government ran a deficit in April for the first time in 26 
years. We spent $20.9 billion more than we took in for last 
month alone. Since October, our overdraft account has a balance 
of a record $802 billion; and at that pace we are on the road 
to our Nation's first-ever $1 trillion annual deficit.
    So is it wise to say that some of the extra funds 
authorized in this bill, funds that we clearly don't have, 
should, as a priority, go to projects like the fourth priority, 
which was added in section seven of this bill, which makes 
preventative projects as much of a priority as the systems in 
most need or present the most danger to human health?
    Dr. Janssen. When I took an oath as a physician, prevention 
was a big part of that. That is part of the Hippocratic Oath. 
Preventing disease is much less costly than treating disease.
    So bacterial contamination has been associated with not 
just nausea and vomiting and having to be in bed all day with 
diarrhea and staying home from work, which is costly to 
businesses, but also has resulted in kidney failure, 
hospitalization in the ICU, and even----
    Mr. Scalise. Right. And so we have got a host of problems 
that you deal with, that we all deal with.
    But, again, with unlimited resources, we could address each 
of those. But if you've got a situation--if a doctor is 
treating patients at a hospital and three people come in all at 
the same time with various levels of degrees, wouldn't you take 
the patient who is the most in dire need of attention? If you 
have only got one doctor and three patients, the one that is 
near death versus the one that might just need an aspirin, 
wouldn't you take the one with near death first or would you--
--
    Dr. Janssen. I think that is true, but I would say our 
aging infrastructure is a dire situation.
    Mr. Scalise. Right. But until they change the priorities so 
that a system that is most severely in need gets the same 
attention as one that is not severely in need when you have 
limited resources--when you don't have limited resources, I 
understand it would be fine to treat all of those, but do you 
think it is appropriate that this bill changes that priority so 
that you as an administrator or somebody who is an 
administrator of a water system can't treat the most-in-need 
system, even if they have limited resources?
    Dr. Janssen. Well, I am here to speak about the endocrine 
disruptor screening provisions in the bill, but my read of the 
bill and my interpretation of it is that prevention becomes an 
equal priority with the other priorities that you are 
describing. So it is not placing that priority above the other 
ones and the water system could----
    Mr. Scalise. Let me ask Mr. Crouse, who deals with the 
water system in Maine. What is your take on that?
    Mr. Crouse. When we look at projects that--we always get 
more project requests than we have money available, so we do 
prioritize based on those systems that are in violation. So our 
scoring system is weighted to the ones that are out of 
compliance with Safe Drinking Water Act regulations. Those are 
our highest priority. The ones that are lower priority are the 
ones that are maintenance, infrastructure, replacement, those 
types of activities.
    Mr. Scalise. Mr. Levy, your take on that, representing 
rural water systems.
    Mr. Levy. Representative, I probably spend 2 nights a week 
out raising water rates for some small town, and I understand 
what you are getting at. What I am seeing, frankly, is small 
communities being unable to keep up with both aging 
infrastructure and complicated rules and regulations, and it is 
an ongoing struggle. I think this bill does a lot to put the 
greatest needs first, and I think that is important.
    Now, let me just share a little story we are doing----
    Mr. Scalise. I am almost out of time, so I apologize.
    If I could go on, back to Mr. Crouse, why do some States' 
analysis conclude the Davis-Bacon provisions will inflate the 
cost of drinking water projects and how would you remedy that?
    Mr. Crouse. Well, in Maine, we do not have a State 
prevailing wage rate requirement. So when ARRA came along with 
the Davis-Bacon provision attached, we had to begin 
implementing that, so we did see some increases in costs, 
project costs, as a result of contractors having to meet the 
Davis-Bacon wage rate requirements.
    Mr. Scalise. OK. Mr. Levy, in terms of the prevailing wage, 
how would that increase costs for you? Any kind of quantitative 
analysis?
    Mr. Levy. In terms of--we have seen some project costs go 
up. We have seen some project costs stay the same. I would say 
that there is a mixed opinion on it. We are basically deferring 
to Congress on the implementation of Davis-Bacon. We feel that 
this is an issue that you are going to need to wrestle with.
    I would say----
    Mr. Scalise. But it does, in cases, increase the cost and 
make it to where you are not able to fix as many water systems 
if that cost is increased on particular projects?
    Mr. Levy. I would say it is catch as catch can in terms of 
individual projects. Some of them are going up; some are 
staying the same.
    Mr. Scalise. Thank you. I yield back.
    Mrs. Capps. I now recognize Mr. Inslee for 5 minutes.
    Mr. Inslee. Thank you.
    I wanted to ask some of the witnesses about endocrine 
disruptors specifically. We have certainly had a problem. I am 
from the State of Washington, and we have found these 
disruptors in Puget Sound. We have got male fish with female 
proteins in Elliot Bay. We are finding there is 150,000 pounds 
of untreated toxic finding its way into Puget Sound every day. 
We have got the endocrine-disrupting chemicals found in 
numerous King County waters, and I won't list the names of 
them.
    But I wanted to ask witnesses about the ability to keep 
endocrine disruptors out of the waterways in general. I have 
introduced a bill to create a legal pathway to dispose of 
pharmaceuticals so they don't get flushed down the toilet and 
end up in our waterways. We are particularly concerned about 
endocrine disruptors, and I just wanted to ask--maybe I would 
start with Ms. Dougherty--what advice you could give us.
    I am trying to keep these things out of the waterway in 
general. We have suggested a way to allow communities to do 
drug take-back programs to keep these out of our sewer systems 
which are not designed to segregate this stuff from going into 
the bays and estuaries. But I just wondered--and I will start 
with Ms. Dougherty--what comments you would give us on trying 
to keep this out of the water system in general.
    Ms. Dougherty. I think improving the ability for 
communities to have drug take-back programs is a good idea and 
something to follow through on. We have done some work over the 
last couple of years to try to see what could be done with 
that. That doesn't completely solve the problem, because, 
obviously, what goes through people's bodies also comes out; 
and we need to look at what we do in terms of the wastewater 
treatment plants and whether there are things that can be done 
to understand what comes out of wastewater treatment plants and 
goes into the environment.
    Mr. Inslee. Ms. Dougherty, you could help us. The bill that 
I have introduced--there are two concerns about leftover 
pharmaceuticals. One, they end up getting into the hands of our 
kids who then sell them on the street; and prescription drug 
abuse is now the fastest-growing problem with drug abuse right 
now. So that is one of the problems. The other thing is these 
endocrine disruptors and other chemicals getting in our natural 
water systems.
    Our bill would address both of these issues. I hope you 
might think about trying to alert other members of my 
committee, frankly, of the necessity of making sure we deal 
with both of the problems, including the ones that we are here 
talking about of endocrine disruptors. Some of us suggested we 
don't deal with the environmental issue, we only deal with the 
drug abuse problem. We think we should deal with both.
    Ms. Dougherty. I agree you need to deal with both.
    Mr. Inslee. I appreciate that, and I will quote you widely. 
And if you can let others know in the House your thoughts on 
that, that would be appreciated, because we are trying to move 
this bill.
    Does anyone want to comment on this issue on the panel?
    Dr. Janssen. I can comment on this.
    Thank you for your questions and for your efforts to reduce 
the upstream of these chemicals into the environment. NRDC 
published what we call a scoping paper on pharmaceuticals in 
the environment, and I will provide that to this committee for 
your pleasure in reading.
    [The information appears at the conclusion of the hearing.]
    We talk about the whole entire lifecycle of the 
pharmaceuticals so not just the disposal practices but also 
designing better drugs to begin with. Because we know that some 
drugs are more likely to remain in the environment than others 
and especially drugs which are not necessarily the most 
prescribed by volume or in terms of numbers but drugs which for 
whatever reason are very persistent because of the way that 
they are structured and developed.
    A second is to have better physician practices in 
prescribing medications. I think physicians have largely gotten 
the message about reducing prescriptions for antibiotics, for 
example, for a viral infection. Well, we know they are not 
going to do any good to the patient. But patients still go in 
and expect to get an antibiotic when they see their doctor. So 
we have to do better education of both patients and physicians 
to decrease the prescriptions of unnecessary drugs.
    And, finally, I do agree that we need better treatments in 
our wastewater plants and better research into methodologies 
that can remove these things before they are put back into the 
wastewater stream.
    Mr. Inslee. Thank you.
    Anyone else.
    Mr. Quill. Yes, if I may.
    I think your approach is rational, but I don't know why it 
would be limited to so-called endocrine disruptors. It is 
always good to limit the release of any chemical to the 
environment.
    I would say, on the fish issue, you may regulate or prevent 
the release of drugs per se, but it doesn't address other 
issues. You know, there's estrogens that come from female urine 
that are not related to pharmaceuticals. Those would have to be 
regulated. And there are other sources such as runoff, just 
what are called phytoestrogens from plants. There are a number 
of things that have to be regulated, and pharmaceuticals may be 
one, but there are other places to look.
    Mr. Inslee. I can assure you I will not be offering a bill 
to regulate the female constituents of the First Congressional 
District. And, by the way, our bill does deal with all 
chemicals and prescriptions, not just endocrine disruptors. 
Thank you.
    Mrs. Capps. Dr. Burgess is recognized for your questions, 5 
minutes, please.
    Dr. Burgess. Thank you. I appreciate that.
    As a public service announcement, the water in your 
pitchers is either taken from a plastic bottle in the back 
which has not been screened for BPA or, worse yet, it came from 
the tap, and we are advised not to drink the water in the 
Capitol because of the high lead content. Just so you know.
    Ms. Dougherty, let me ask you a couple of questions, if I 
could, because you are the director of one of the major offices 
in the Office of Water in the EPA; is that correct?
    Ms. Dougherty. Yes.
    Dr. Burgess. In March of this year, there is a report that 
came from the EPA Inspector General concerning recommendations 
from past Inspector General reports, and the report delineates 
down to the Office of Water, and some of these programs I think 
would fall under the jurisdiction of the Office of Ground Water 
and Drinking Water. So if I mention programs that are handled 
by another office, please let me know that.
    But the report is the compendium of unimplemented 
recommendations as of March 31, 2010; and the report itself is 
dated April 28, 2010. The Inspector General lists six reports 
that involve unimplemented recommendations. One of the reports 
was issued in 2002, another in 2004, another in 2006. No other 
EPA program office was close to this record. If you could, tell 
us why the Office of Water has such a problem in implementing 
recommendations from the EPA Inspector General compared to 
other EPA program offices.
    Ms. Dougherty. I am afraid I will have to get back to you 
on that, since I don't have the list in front of me. But, 
normally, the Inspector General reports have recommendations 
for actions for EPA to take and EPA responds with what actions 
we plan to take and tracks those actions. So I am not familiar 
with exactly which----
    Dr. Burgess. I think there is----
    Ms. Dougherty. Occasionally, there are some differences in 
what we think meets what we have said we would do and what the 
Inspector General thinks meets what we are expected to do. But 
let me get back to you on that.
    Dr. Burgess. But we are not just necessarily as a Federal 
agency free to ignore those IG recommendations because we 
disagree.
    Ms. Dougherty. What they track is not so much their 
recommendations but what we have said we would do about them, I 
believe, and----
    Dr. Burgess. Well, just a couple of specifics on the April 
28 report which I will make available to your office.
    Ms. Dougherty. I am sure I have it. Thank you.
    Dr. Burgess. The EPA Office of Water agreed to complete 
implementation of a recommendation from a 2002 IG report on 
wastewater management by September 30, 2009, but as of the 
April 28 report it was still unimplemented. We are a few weeks 
past that point at this juncture. Is it still unimplemented at 
this time?
    Ms. Dougherty. I can assure you that it is not my office. 
That one is not my office, but I will go back and respond back 
to you on that.
    Dr. Burgess. Very good. Also, according to this same 
report, the Office of Water has not implemented a 
recommendation in which the Office of Water agreed to take 
corrective action by September 30. This action would be in 
response to a recommendation from a 2004 IG report that found 
that the EPA needed to reinforce its national pretreatment 
program; and, in particular, the Office of Water was to develop 
a long-term strategy to identify the data it needs for 
developing pretreatment results-based measurements. The IG says 
the Office of Water has not implemented the recommendations as 
of March 31, 2010.
    I would ask you today, have those recommendations been 
implemented?
    Ms. Dougherty. I can't answer that. Again, that is not my 
particular office within the Office of Water, but I can get you 
a response.
    Dr. Burgess. I would appreciate that; and we will provide 
you the several things here that we have got, recommendations 
that haven't been implemented.
    Mr. Quill, let me ask you, because you were building up to 
what sounded like an important apex in your testimony, and we 
unfortunately cut you off. You were making the point that the 
screening data sometimes can lead to regulation that, if I 
understood you correctly, that may be jumping the gun or 
missing the mark. Would you care to finish that thought that 
you had when you were giving your opening statement?
    Mr. Quill. Yes, sir. And thank you for the question.
    The point I was making is, in the bill, there is a 
definition of endocrine disruptor which basically includes 
anything. If you don't incorporate into that definition the 
idea of adversity--although the term ``disruptor'' suggests 
adversity--what you have defined as an endocrine disruptor is 
anything. It could be soy, it could be baby formula, anything 
that interacts with the hormone system, with the endocrine 
system.
    On top of that, you have a definition of testing which 
includes screening, and it is important to understand that 
screening merely tells you whether something has the ability to 
interact with the endocrine system. It kind of tells you a 
mechanism of action. Not only that, screening tests are 
designed to be highly sensitive, which means there is a high 
false-positive rate.
    Really, screening tests are valuable for prompting more 
definitive testing. So the idea is you have a definition of an 
endocrine disruptor, you have a definition of testing which 
includes screening, and then you have a provision that says, 
based on the results of testing--read screening or mechanistic 
data--the agency shall take action. And that action some might 
perceive to be regulatory action, and therefore what we might 
see is regulatory action based on mechanistic information. That 
is not the way science-based regulation is done currently in 
the country.
    However, the thing that concerned me is there is this trend 
to not rely on data, to rely on some very basic screening-type 
data and use precautionary principles and call for regulation. 
That was my concern.
    Dr. Burgess. I know we have gone over time, but let me just 
ask you if you all will work with us on the language of that so 
maybe we could possibly get it right in the underlying bill. We 
would appreciate that very much.
    Mr. Quill. Thank you.
    Mrs. Capps. Thank you.
    Now turning to Mr. Shadegg for your questions, 5 minutes.
    Mr. Shadegg. Thank you, Madam Chairman.
    Dr. Burgess hit upon the line of questioning that I would 
like to go ahead with, Mr. Quill, and I am interested in 
getting further definition. You say that there are various 
provisions of the bill that you believe are contrary to good 
science and fail to use good science either intentionally or 
unintentionally, significantly undermining existing, well-
established procedures for science-based regulation. Can you 
compare the concerns you have or illustrate the concerns you 
have with what is in the proposed legislation compared to the 
program that is currently going on?
    Mr. Quill. Yes, sir. If we go back to the 96 amendments to 
the Safe Drink Watering Act that include the endocrine 
provisions, EPA was granted full authority to do pretty much 
everything that is in the current bill. The big difference here 
is that the bill orders the EPA to act, as opposed to just 
granting it authority, and it has some hard deadlines.
    Mr. Shadegg. Could you stop--it orders it to test or does 
it do more than order it to test? Because ordering it to test--
--
    Mr. Quill. It orders the agency to list and then test 25 
chemicals per year. OK.
    Mr. Shadegg. I thought you said it was going to be up to 
the EPA to determine whether or not they could achieve----
    Mr. Quill. Well, that is always the case. In the Food 
Quality Protection Act that EPA bases its current EDSP on, the 
bill expected EPA to take certain action within 2 years. The 
science didn't allow it. So you know----
    Mr. Shadegg. Apparently. OK. Proceed.
    Mr. Quill. In any event, the current EDSP envisions that 
endocrine disruptors are substances that cause adverse effects. 
That is a change in the new bill.
    I have this overarching concern that--I am not sure what 
the bill intends to do, but I have a concern that it might 
promote regulation based on screening data. The current EDSP 
makes it clear that that is not what is supposed to happen with 
screening data. Screening data are supposed to be used to 
prompt Tier 2 testing. And just in reading the bill, I was just 
concerned that it wasn't clear that it fully understood the 
value of screening data versus testing data and how regulations 
are typically done. And perhaps the committee fully understands 
this. However, as a person who has to deal with the 
interpretation of this Act down the road, I have some concerns.
    Mr. Shadegg. In your oral testimony, you said that we 
needed to stay true to the scientific method, not avoid, I 
guess, preconditions or preconclusions. But you also said that 
it was important to tie the definition to the potential for 
harm or adverse effect. From what you have just said, I gather 
what you are saying is that the current law says, in defining 
endocrine disruptors, that they are those with adverse effect 
and your concern is this legislation removes the requirement 
that there be adverse effect or that criteria?
    Mr. Quill. No, sir, not precisely. There is no definition 
in the current law. The current definition is in the EPA's 
EDSP, and there are a variety of definitions out there but the 
only one that really makes any sense is to have adversity 
incorporated in the definition. Even during the hearing today, 
the term ``endocrine disruptor'' is thrown around. Frankly, I 
don't know what it means. I don't know whether it means 
something that there is evidence of a molecular interaction or 
does it mean something where there is evidence of an adverse 
effect? Because we don't define our terms well.
    Mr. Shadegg. And you believe that a definition should be 
added to that law making that clear?
    Mr. Quill. Well, to the extent that the definition is added 
to law as it would be in this Act, it ought to be improved to 
include the concept of adverse effects.
    Mr. Shadegg. I appreciate that answer. And I would echo 
what Dr. Burgess said. I appreciate your assistance in 
clarifying that point.
    I think often when we write laws we don't clarify the 
terms, and failing to define those terms then leaves vast 
discretion.
    I yield back the balance of my time, ma'am.
    Mrs. Capps. Thank you.
    We have completed our first round of questions. If there 
are no objections, we will do a second round; and I will begin 
for 5 minutes.
    Ms. Dougherty, one of our witnesses says that EPA shouldn't 
issue any more test orders for chemicals under the endocrine 
disruptor screening program until its first set of test results 
come back in the next year or two. Isn't it true that EPA is 
already finalizing its next list of 100 chemicals for testing, 
and this is following direction from the House appropriators?
    Ms. Dougherty. Yes. As I mentioned in my oral testimony, we 
have a list of a hundred that we are doing based on current 
drinking--regulated drinking water contaminants, the 
contaminant candidate list of potential future drinking water 
regulations, and the pesticides that are up for review in the 
next 2 years.
    Mrs. Capps. And isn't it true that the tests EPA has 
required have been validated by multiple laboratories? Is this 
the case?
    Ms. Dougherty. We have gone through a process to validate 
the tests, and they have been also peer reviewed by the Science 
Advisory Panel that the pesticides program has.
    Mrs. Capps. Do you think the results of these tests will 
yield valuable information?
    Ms. Dougherty. I believe that they will, and we will be 
able to use that information then to evaluate the next steps 
that we would need to take on particular contaminants.
    Mrs. Capps. So do you have the belief or opinion that there 
is any reason we should stop in our tracks and disrupt the 
continuation----
    Ms. Dougherty. No. I think that we need to have a process 
over time as the bill considers to relook at how we are doing 
the testing and improve things over time, but I think that we 
are fine with starting what we have and improving that over 
time.
    Mrs. Capps. I will turn to you, Ms. Janssen.
    One of our witnesses stated in his testimony that the 
endocrine disruptor screening language in the bill requires EPA 
to regulate endocrine disruptors even when there is no adverse 
health effect found. Isn't it true that the definition of 
testing in our legislation requires EPA to determine whether 
something is an endocrine disruptor as well as to determine 
what the effects of the substance are? And you can expound on 
that if you wish.
    Dr. Janssen. Yes. Thank you for the question.
    I agree that is correct. My reading of the bill is that it 
is requiring EPA to issue test orders which will be carried out 
by the manufacturers with these contract labs to determine 
whether or not they have endocrine disrupting effects. Right 
now, that protocol is both screening and testing; and then at 
the end of that EPA will have the discretion to decide the next 
steps that they will take based on the information.
    Mrs. Capps. Isn't it also true that nothing in our 
legislation requires EPA to regulate any substance? In fact, 
really all the legislation does is to require EPA to determine 
whether or not to do so based on the result of the testing?
    Dr. Janssen. Yes, that is correct.
    Mrs. Capps. So, basically, all legal thresholds that must 
be met for substances to be regulated under the Safe Drinking 
Water Act would still apply to endocrine disruptors under our 
language; is that correct?
    Dr. Janssen. That is correct. Thank you.
    Mrs. Capps. And I will turn back to you for final agreement 
or disagreement, Ms. Dougherty.
    Ms. Dougherty. Yes. We would still have the statutory 
criteria that we use to make a determination as to whether to 
regulate, and we would still be required to establish our 
regulations on the same basis that we do now.
    Mrs. Capps. Thank you.
    I am going to yield back the balance of my time and turn to 
Mr. Scalise for any questions you may have.
    Mr. Scalise. Thank you.
    Ms. Dougherty, section 16 in the bill establishes an 
endocrine disruption screen and testing program for 100 
substances over 4 years. Is that a realistic set of criteria?
    Ms. Dougherty. It is consistent with what we are doing 
right now in terms of identifying the next list of a hundred.
    Mr. Scalise. So it is something that you think you all can 
meet?
    Ms. Dougherty. I believe so, yes.
    Mr. Scalise. OK. Thanks.
    Mr. Levy, section 7 of the bill contains a new series of 
reporting requirements for SRF applicants. In your testimony 
you state that the new reporting could overwhelm many smaller 
communities' ability to apply for funding. What specific fix do 
you suggest be added to the bill to address this concern for 
the smaller water systems?
    Mr. Levy. Congressman, my understanding is the reporting is 
more based--is more a requirement of the primacy agencies than 
the drinking water systems themselves. That being said, small 
water systems and large water system always have enormous 
difficulties providing the reports that are required by the 
primacy agencies, which is why we contend that technical 
assistance is so important for our programs.
    Thank you.
    Mr. Scalise. Thank you.
    Mr. Crouse, you recommended that States be allowed to use 
the 15 percent set-aside for source water protection activities 
in addition to the assessment activities currently proposed. 
What are these activities and why shouldn't the States pay for 
them?
    Mr. Crouse. Under the '96 amendments, the 15 percent set-
aside allowed us to assess source water protection needs, and 
most of that assessment work is done in the States, I believe, 
at least in Maine, and we are trying to implement those 
recommendations that we found in the source water assessments.
    So we still have the 15 percent set-aside available. We 
have done the majority of the assessments. We would like to now 
move to the next phase of actually implementing a number of 
those recommendations.
    Mr. Scalise. OK. Why do the States need the administrative 
set-aside to increase? Because in the bill--and it is in 
section 9--they actually allow for a 50 percent increase in 
administrative costs for 4 percent up to 6 percent; and in 
these tight economic times when you have got families and 
businesses that are tightening their belt, why would you want 
the increase in administrative costs to go up by 50 percent?
    Mr. Crouse. Well, the 4 percent generally has not been 
adequate to finance the staff time and expenses needed to 
administer the Drinking Water State Revolving Fund, in Maine, 
anyway, where 1 percent stays so we get 1 percent of the 
national cap grant. So 4 percent of that has not been enough to 
cover all our staff costs to administer this area.
    Mr. Scalise. But a 50 percent increase seems like a pretty 
dramatic and to many people offensive increase when you are 
considering that people in businesses are cutting back, that 
here in this bill you are actually allowing for a 50 percent 
increase. What percent are systems? What is it costing systems 
right now? If 4 percent isn't enough, what is the kind of going 
rate? I mean, if they are doing it, if there is a cap now, they 
are making by.
    Mr. Crouse. Right now, we are using funds from other 
sources to supplement the administration of the SRF program, 
whether it be other set-asides, using the 10 percent set-aside 
or some other State money or fees on loans that are 
administered.
    You now, there is a certain amount of staff that is needed 
to administer the SRF and there is a certain amount of costs 
associated with that. So we are just trying to meet those 
needs.
    Mr. Scalise. And clearly we can look at that as well.
    On the 10 percent State set-aside you just talked about, 
the legislation removes the 100 percent State match. Shouldn't 
States have to put up money in order to be able to get money 
under this? Why take away the interest? If a State is that 
vested that they are putting up money, it seems like you should 
want to incentivize them to have a stake in it. This bill 
completely takes that away.
    Mr. Crouse. Well, with the SRF, States are required to come 
up with a 20 percent State match for the overall capitalization 
grant. So, in Maine, we are getting $13 million. So we have got 
to match 20 percent of that, $2.7 million.
    So the 100 percent State match, the 100 percent match on 
the 10 percent set-aside is an additional match in addition to 
the 20 percent. So it is almost like there is a double match 
requirement on this. Where we have already matched based on the 
20 percent, now with the 10 percent we are asked to match it 
once again, and so that is why we would like to remove that----
    Mr. Scalise. I have got just a few seconds left. I wanted 
to ask one quick question for Mr. Smargiassi.
    You talked about faucets in your testimony. Right now, 
there is legislation in this committee that looks at products 
with any kinds of chemicals in them. No-lead faucets that you 
talked about, it seems no-lead faucets would be taken off the 
market because of the legislation that is also moving through 
here. Would you want to comment on that since no-lead faucets 
seem something you promote? There is other legislation moving 
through that would actually take them off the market.
    Mr. Estes-Smargiassi. I am not familiar with the specific 
legislation and this piece of legislation. What was done in 
California was to go from an unreasonable 8 percent lead in 
brass to a practical, reasonable one-quarter of 1 percent that 
the manufacturers can actually produce a salable product that 
homeowners will buy and install. Our goal is to make sure that, 
as people renovate, that they actually do change out those 
faucets with ones which leach less lead but not to ban a 
product.
    Mr. Scalise. You would promote no-lead faucets, wouldn't 
you?
    Mr. Estes-Smargiassi. The question is, would you--it is, 
again, a definitional question. In this case, we are talking 
about allowing the manufacturer to include a very small amount 
of lead which is necessary to machine the brass components so 
they can actually produce it. It is hopeful at some point in 
the future plumbing manufacturers will come up with adequate 
substitutes so that--absolutely no lead would be a long-term 
goal, but in the short term we need a product that actually can 
be produced and sold.
    Mr. Scalise. Thank you. I yield back.
    Mrs. Capps. Thank you.
    And now the chair recognizes the chairman of the committee 
who has returned and prefers to ask his questions from our far 
right but, of course, the witnesses' far left of the dias. So 
recognized.
    Mr. Markey. I thank the gentlelady very much.
    Mr. Estes-Smargiassi, Massachusetts is extremely 
progressive when it comes to funding State revolving funds 
projects. It allows for funding to be used for rehabilitation 
of all systems, creating system redundancies, and the 
incorporation of water and energy efficiency technologies. But 
I have heard from the water sector that other States do not 
consistently fund these types of projects which is why our bill 
explicitly authorizes the use of a State revolving fund for a 
wide range of forward-thinking projects. Why is it important, 
in your opinion, for water systems to be able to get funding 
for these types of projects?
    Mr. Estes-Smargiassi. Well, I think that encouraging 
systems to think about fixing things before they are broken, to 
plan for problems which may occur, in the case of making sure 
that you have got redundant facilities, and to think long term, 
not to only think about the problem at hand but to think 20, 
30, 40, 60 years out and make sure you are doing something that 
is not just cost effective today but cost effective long term 
makes good sense. We are fortunate that our State has opened up 
the rules so that systems can set those priorities in their own 
system, and it just makes common sense that that be available 
elsewhere in the country.
    Mr. Markey. So what you are basically saying is that 
ensuring that these sorts of cutting-edge projects are eligible 
for funding can actually help to boost compliance with drinking 
water standards and save drinking water systems money in the 
long run?
    Mr. Estes-Smargiassi. I think that is a fair statement.
    Mr. Markey. As you know, our legislation also expands the 
eligibility for extra assistance for disadvantaged communities 
to portions of water systems that are disadvantaged. Water 
systems that serve big cities typically can't receive such 
assistance even though portions of their service areas can 
include extremely poor neighborhoods whose residents can't 
afford the rate increases necessary to bring their systems into 
compliance with safe drinking water standards. For example, El 
Paso, Texas, is one of the poorest cities in the country, but 
it still can't qualify for this funding. Do you think that poor 
urban areas should qualify for extra assistance just as poor 
rural areas do?
    Mr. Estes-Smargiassi. I think it is definitely a problem, 
that in large metropolitan areas, if we think of the system 
simply as a broad system, then we are going to have some of our 
ratepayers pay more than they can afford. That is clearly the 
case in our service area with a city like Chelsea being among 
the poorest in the State is grouped and averaged in with towns 
like Weston, among the richest in the State. This bill takes 
some steps forward which should help some metropolitan areas 
with some increased flexibility for State programs to give a 
little bit extra umph there. It is a difficult problem. Won't 
solve every problem, but it is a step forward.
    Mr. Markey. But, again, going to El Paso or other poor 
cities, obviously, there should be some way that we think this 
thing through to ensure that poor urban areas do get to 
qualify.
    Mr. Estes-Smargiassi. Absolutely.
    Mr. Markey. Now, the State revolving fund has not been this 
reauthorized since it was originally passed and appropriations 
levels decreased steadily until we passed the Recovery Act. We 
need to reauthorize this fund and raise the authorization 
levels.
    This legislation will provide $1.5 billion in 2011, and the 
authorization will grow each year, reaching $6 billion in 2015. 
There are water systems ready and waiting for these funds, and 
people across the country are counting on these funds to keep 
them safe.
    I would like to hear a little bit more from our panel about 
their views on the funding levels. Ms. Dougherty, can you give 
the committee a sense of how these levels compare to past 
appropriations for the State revolving funds?
    Ms. Dougherty. Historically, the SRF has been appropriated 
at about a little bit under a billion dollars a year, in the 
range of 850 or so. So this would be a significant increase of 
that. When we received the appropriation for the Recovery Act 
of $2 billion more on top of the 2009 appropriation of about 
850, that was almost tripling the size of the appropriation 
available to States; and they were able to move projects very 
quickly, find good projects, and move those projects very 
quickly.
    Mr. Markey. Now, how does this can compare to EPA estimates 
of the infrastructure costs facing our Nation's water systems?
    Ms. Dougherty. Our latest needs survey estimated about $334 
billion of need over 20 years for all the eligible categories 
of projects, which includes the rehabilitation kind of 
projects.
    Mr. Markey. Mr. Crouse, how would these authorization 
increases affect your State's program?
    Mr. Crouse. The State of Maine is a 1 percent State, so we 
get 1 percent of whatever comes naturally. So next year we 
would get $15 million. In the past, we have gotten around $8 
million; and this year, through the 2010 appropriation, we are 
going to get about $13.5 million.
    Mr. Markey. Mr. Levy, how would these increases impact on 
rural systems across the country? You are here to testify on 
behalf of rural systems.
    Mr. Levy. I am. I would say that small utilities are the 
bottomless pit for financing. They are old. They need to be 
replaced. They need to come into compliance with new rules and 
regulations. So, frankly, we will use your money and put it to 
good use. Small water systems, large systems----
    Mr. Markey. Do they need it?
    Mr. Levy. They do need it. Just in the three States that I 
work in on a daily basis, most of the water utilities are 
somewhere between 75 and 110 years old; and they need the money 
because the pipes are leaking and because they also need to put 
in sort of the cutting-edge projects, green things, new pumps, 
et cetera, to save their operating costs.
    Thank you.
    Mr. Markey. And, Ms. Janssen, could you talk a little bit 
about how these increases could help enhance public health?
    Dr. Janssen. Thank you, Representative.
    As I submitted in my written testimony, the deteriorating 
condition of our water infrastructure is concerning for public 
health reasons in part because when things like main pipes 
break, like happened recently in Massachusetts, people are 
forced to boil their water. We are not really sure exactly how 
to do that always, and it requires an inconvenience that some 
people might forego and subject themselves to a water-borne 
illness.
    We also know that there are throughout the aging water 
infrastructure small leaks in the distribution lines, which 
create opportunities, especially when these lines are close to 
sewer lines, for sewerage waste to enter into the drinking 
water lines; and this has been documented to result in water-
borne illnesses in the population. So shoring up our water 
infrastructure will go a long ways to prevent these bacterial 
illnesses in the public.
    Mr. Markey. Thank you, Dr. Janssen.
    I yield back the balance of my time. Thank you, Madam 
Chairman.
    Mrs. Capps. Thank you, Mr. Chairman.
    And final questions come from Mr. Shimkus.
    Mr. Shimkus. Thank you very much.
    I want to, to the panel and our guests, thank you for 
coming. It is a very busy time, and members are coming and 
going, and it is a very important issue. So I appreciate the 
chairman for holding the hearing and your testimony.
    Just a comment. If we have people who don't understand how 
to boil water, we are in a world of hurt. So not belittling 
that point, but that is that is a very great statement to be 
said.
    I want to start with Ms. Dougherty, because there is a 
vested interest. I am a cosponsor of Bob Etheridge's bill, H.R. 
2206, which requires EPA to give priority to what assistance 
small communities believe is working the best to help their 
compliance needs. Is this something the EPA is capable of?
    Ms. Dougherty. I think in terms of how we do the technical 
assistance grants it is important for us to make sure we 
understand the issues that need to be addressed by technical 
assistance, and what we have tried to do over the last several 
years with the earmarks that we have received is to make sure 
that the technical assistance providers and the States work 
together to identify the priorities that need to be dealt with 
in a particular State so that the technical assistance 
providers are providing small systems the help that they need.
    Mr. Shimkus. Yes. Because I have been here longer than I 
would like to admit sometimes and you learn that really the 
water supply is very diverse throughout the country and the 
people that have had to deal with it, especially in small town, 
rural areas, and they have to address the needs. There really 
is some expertise there on the localism issue. So we would hope 
that that would be a focus.
    I have a question to, if I can find it--Mr. Quill, I 
noticed that the legislation has a petition process to have 
substances included on this list, but I am curious that I don't 
see a process or at least a formalized process where substances 
could be removed. And the issue is, if there is--I always want 
to focus on real science, real data, the ability to replicate 
through the scientific method. If the scientific process poses 
a point that a substance should not be on the list, should 
there be a process by which an element can be removed?
    Mr. Quill. Well, that would make sense. I would think, 
though, that it could be a different process and there could be 
different requirements for adding a substance to the list or 
removing a substance to the list.
    Keep in mind the point of adding a substance to the list 
now is just for it to undergo screening where we intend that 
there is going to be a high false-positive rate. What would it 
take to remove something from the list? It may take more 
evidence that a substance either doesn't interact with the 
endocrine system or, more importantly, evidence either for or 
against regulating. Because, at the end of the day, the point 
here should be to determine what substances cause an adverse 
effect and to manage those effects, not necessarily just to 
gather a bunch of facts about interactions with the endocrine 
system molecular data. So I think you make a very good point. I 
would just say it could be different types of data.
    Mr. Shimkus. Because everything we do--and we are all in 
it--we want to make sure folks are safe and systems are sound, 
but for every addition there is an additional cost, especially 
in some of the systems. So I would think that we would focus on 
some real science and have a process.
    Mr. Quill. Yes, sir.
    And if I may add one thing, the earlier question about the 
billions of dollars for infrastructure, the thing that popped 
in my mind was, jeez, if we had 5 to $10 billion, we might be 
able to screen and test a thousand chemicals. Well, that really 
raises the issue as to where is money best spent and how can we 
do the screening and testing in a more efficient manner so that 
funds can actually be used where they may have a greater 
impact.
    Mr. Shimkus. Yes. And I want to end with this--and those 
bells are votes, and it looks like I am the last person--but, 
Mr. Estes-Smargiassi, this question is for you. It talks about 
the risk-risk tradeoff of implementation and it uses the D.C. 
Lead removal fixture story as a case study that, in trying to 
solve a problem, we may create more. And I think in essence 
shaving off to replace lead pipes may, in essence--our 
understanding is more lead contamination versus what was, in 
essence, a mitigated amount if you would have kept it.
    Can you talk to that? How do we address this risk-risk 
tradeoff.
    Mr. Estes-Smargiassi. I think it is important to be 
thoughtful whenever you take an action that you understand the 
potential adverse impacts.
    In the instance you are referring to, when you disturb a 
lead service line, the pipe connecting the main to the house, 
the evidence does seem to indicate that you do get some 
additional lead for release during at least a short period of 
time after that. If you don't remove the whole lead service 
line, you see an increase in lead levels at the tap perhaps or 
certainly in the water that you are sampling for a period of 
time, and then the lead level returns pretty close to where it 
was before from the remaining lead pipe, at least in the 
research data we have seen.
    So that says you want to be thoughtful and make sure that 
if you are spending money having a short-term adverse impact 
that you are actually getting a benefit at the back end, and 
that may not be the case for every lead service line 
replacement program. They need to be designed carefully, 
thoughtfully, and hopefully get all the lead out, if that is 
what you are trying to do.
    Mr. Shimkus. Thank you.
    Mr. Chairman, that is all the questions I have.
    Mr. Markey [presiding]. Thank you.
    Here is what we will do. We will wrap up the hearing this 
way. We will give each one of you 1 minute to tell us what you 
want us to remember.
    Mr. Shimkus. Lightning round.
    Mr. Markey. Yes. This is it. This is the moment where you 
get to talk to America. We have C-SPAN covering this.
    What do you want us to know as we are looking at the water 
that people drink in our country, that comes into their homes, 
into their children's bodies. What do you want us to know about 
these issues as we are----
    So, this way, we will go in opposite order of the original 
testimony. We will begin with you, Mr. Quill. We will give each 
one of you 1 minute.
    Mr. Quill. Thank you.
    I think my major issue, again, is the message that the Act 
sends concerning regulation. In earlier questions, it was 
suggested that there was no intent to regulate based solely on 
mechanism of action. I would say that the legislation is not 
clear in that regard. It may be misinterpreted. I would urge 
the committee to, in that regard and throughout the bill, 
improve the language so it is very clear that the bill 
accomplishes the committee's purposes.
    Mr. Markey. OK. Well, we want to work with you to make sure 
it is crystal clear. Thank you.
    Dr. Janssen.
    Dr. Janssen. Thank you.
    I would like to say that--I didn't get a chance to mention 
it in my testimony, but the bigger picture problem is that, 
because of the weak chemical regulation laws that we have in 
this country, we have virtually no information about the 
majority of chemicals which are in our drinking water as well 
as in our food and our consumer products and inside of our 
homes, including whether or not these chemicals are endocrine 
disruptors.
    Congress recognized that endocrine disruptors present a 
threat to human health in 1996, and then here we are 14 years 
later. They have spent a lot of money at the Environmental 
Protection Agency, but we have not yet tested one chemical for 
its endocrine-disrupting potential. The point of the screening 
and testing program is not to regulate these chemicals but 
rather to be identifying them so that we know where we are 
being exposed to these chemicals which do likely present a 
threat to our health.
    Thank you.
    Mr. Markey. Thank you.
    Mr. Estes-Smargiassi.
    Mr. Estes-Smargiassi. Our goal as water supply systems is 
to provide safe, reliable, affordable water for our customers. 
So in my remaining 40-some seconds, more SRF funding, that is 
helpful in making sure that we can accomplish what we need to 
do and not make our bills so high that our customers can't 
afford the water. More flexibility so that we can actually 
manage the problems that we see at the local level, whether it 
be aging infrastructure or our need for redundancy. And other 
portions of the system we don't control, such as the plumbing 
in people's homes. Less lead there so that our customers 
receive the high-quality water that comes out of our reservoirs 
and through our treatment plants all the way to their tap. It 
doesn't do any good for us to spend a lot of money on treatment 
if at the end the water is degraded in that last few feet of 
pipe.
    Mr. Markey. Thank you.
    Mr. Levy.
    Mr. Levy. Thank you for my 60 seconds.
    The National Rural Water Association represents over 20,000 
small water systems. These small water systems are mostly run 
by locally elected people, and they take public health very 
seriously.
    They have special challenges. We feel this bill is an 
improvement because it helps target more resources to the most 
needy and helps prioritize that funding. There is never enough 
money, because there is just not enough money.
    We also thank you for providing more technical assistance 
through rural water to these small towns who have these special 
circumstances, and we intend to work with the committee and EPA 
for the next 30 years.
    Thank you.
    Mr. Markey. Thank you. Thank you for the 18 seconds back.
    Mr. Crouse.
    Mr. Crouse. Thank you.
    The Association of State Drinking Water Administrators 
appreciates the opportunity to be here and to provide 
testimony, and I will speak specifically again on the SRF. We 
feel like it is not all doom and gloom. There are incredible 
things going on across the country with water systems and 
infrastructure improvement. The SRF has served us well, 
tremendously well over the last 13 years, and this 
reauthorization has the opportunity to continue to provide 
great work both on the Federal, State, and local levels to 
enhance our water systems' abilities to provide safe, reliable 
drinking water 24 hours a day, 7 days a week, and we very much 
appreciate being here.
    Mr. Markey. Thank you, Mr. Crouse.
    Ms. Dougherty.
    Ms. Dougherty. EPA's goal is to make sure everyone has safe 
water everywhere every day. The SRF has been an important tool 
in helping make that happen in a number of places, and we think 
it is important as we look at improvements to the SRF that we 
make sure that it still is a valuable tool for States to use 
and for systems to get financing from. The endocrine disruptor 
testing program provides us with an opportunity to get better 
information on a number of chemicals that we are looking at in 
the drinking program that will help us make our decisions down 
the road in terms of regulatory decisions.
    Mr. Markey. Thank you, Ms. Dougherty, very much.
    This is obviously a very important piece of legislation 
because it deal with something that affects every American 
every day, the water that we put into our bodies, and we have 
to make sure that we have policies in place that ensure that it 
is dependable. That is a daunting challenge, because many of 
our systems are 75, 100 years old, especially in rural America, 
so that we ensure that the funding is there. And as we are 
looking at reliable funding sources, we also want to find ways 
of encouraging systems to use new, innovative technologies so 
that we move to the future, we capture the innovations that 
have been made.
    And, finally, I would say that, because children especially 
are very vulnerable to chemicals that can impact on their 
endocrine system--and the endocrine system is no more, no less 
than just the computer system of the body and in children that 
computer system is still developing and if chemicals impact on 
any part of that endocrine system, that computer system for 
young people's bodies, it can change the way in which the 
genetic makeup of that body is then structured for the rest of 
those children's lives. We have a responsibility to make sure 
that we learn as much as we can about those chemicals that are 
in the water that are going into small children's bodies, 
especially because the impact on those children for the rest of 
their lives, if their DNA, if their genetic makeup is altered 
because they are so vulnerable, they are so fragile in the 
early years, that this responsibility falls to the government 
to ensure that we learn about these chemicals.
    Because we know that while we have cured most of the 
diseases that affected people a hundred years ago, we know now 
that most of the diseases that people suffer from are diseases 
that we give ourselves, too much smoking, too much drinking, 
other dangerous activities that people might engage in, 
obesity, putting food in our bodies, but, also, what are those 
chemicals that are in people's bodies? What are those things 
that are now causing these extra levels of diseases that we are 
seeing?
    And we do know that children are the most vulnerable and 
this water contains, we know, chemicals that did not exist 100 
years ago, did not exist 50 years ago, and could, in fact, 
provide, if we learn more about the chemicals, the clues that 
we need in order to avoid the genetic makeup of children being 
altered as it is in its formative stage.
    That is why this legislation is so important. Because it 
might give us that chance to begin to track those clues a 
little bit more closely. And then, in doing that research, 
because research is medicine's field of dreams from which we 
will harvest the findings that will give hope to families, that 
perhaps we can prevent children from growing up with disorders, 
diseases, or vulnerability to diseases that was preventable 
because we allowed their bodies to grow strongly and not have 
them damaged in their early years through the water they were 
drinking.
    And that is all we really are trying to do here, just get 
the information. Because information ultimately will allow us 
to put together the most commonsense and smart ways of 
protecting those children.
    So we you thank all of you for being here. We want to work 
with you. We want to make sure that everything that we do is, 
Mr. Quill, crystal clear, but that the goals that we have 
should in fact be clear as well, and as long as we are 
achieving those goals, I think that we can all work together. 
That is our hope.
    We thank all of you for your testimony. We would like you 
all to work closely with this subcommittee and the full 
committee over the next month or so, because we are going to 
continue to need to have access to your expert insight, and if 
we do that, I think we can put something together that will 
really work for the American people.
    Thank you.
    With that, this hearing is adjourned.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T6580A.041
    
    [GRAPHIC] [TIFF OMITTED] T6580A.042
    
    [GRAPHIC] [TIFF OMITTED] T6580A.043
    
    [GRAPHIC] [TIFF OMITTED] T6580A.044
    
    [GRAPHIC] [TIFF OMITTED] T6580A.045
    
    [GRAPHIC] [TIFF OMITTED] T6580A.046
    
    [GRAPHIC] [TIFF OMITTED] T6580A.047
    
    [GRAPHIC] [TIFF OMITTED] T6580A.048
    
    [GRAPHIC] [TIFF OMITTED] T6580A.049
    
    [GRAPHIC] [TIFF OMITTED] T6580A.050
    
    [GRAPHIC] [TIFF OMITTED] T6580A.051
    
    [GRAPHIC] [TIFF OMITTED] T6580A.052
    
    [GRAPHIC] [TIFF OMITTED] T6580A.053
    
    [GRAPHIC] [TIFF OMITTED] T6580A.054
    
    [GRAPHIC] [TIFF OMITTED] T6580A.055
    
    [GRAPHIC] [TIFF OMITTED] T6580A.056
    
    [GRAPHIC] [TIFF OMITTED] T6580A.057
    
    [GRAPHIC] [TIFF OMITTED] T6580A.058
    
    [GRAPHIC] [TIFF OMITTED] T6580A.059
    
    [GRAPHIC] [TIFF OMITTED] T6580A.060
    
    [GRAPHIC] [TIFF OMITTED] T6580A.061
    
    [GRAPHIC] [TIFF OMITTED] T6580A.062
    
    [GRAPHIC] [TIFF OMITTED] T6580A.063
    
    [GRAPHIC] [TIFF OMITTED] T6580A.064
    
    [GRAPHIC] [TIFF OMITTED] T6580A.065
    
    [GRAPHIC] [TIFF OMITTED] T6580A.066
    
    [GRAPHIC] [TIFF OMITTED] T6580A.067
    
    [GRAPHIC] [TIFF OMITTED] T6580A.068
    
    [GRAPHIC] [TIFF OMITTED] T6580A.069
    
    [GRAPHIC] [TIFF OMITTED] T6580A.070
    
    [GRAPHIC] [TIFF OMITTED] T6580A.071
    
    [GRAPHIC] [TIFF OMITTED] T6580A.072
    
    [GRAPHIC] [TIFF OMITTED] T6580A.073
    
    [GRAPHIC] [TIFF OMITTED] T6580A.074
    
    [GRAPHIC] [TIFF OMITTED] T6580A.075
    
    [GRAPHIC] [TIFF OMITTED] T6580A.076
    
    [GRAPHIC] [TIFF OMITTED] T6580A.077
    
    [GRAPHIC] [TIFF OMITTED] T6580A.078
    
    [GRAPHIC] [TIFF OMITTED] T6580A.079
    
    [GRAPHIC] [TIFF OMITTED] T6580A.080
    
    [GRAPHIC] [TIFF OMITTED] T6580A.081
    
    [GRAPHIC] [TIFF OMITTED] T6580A.082
    
    [GRAPHIC] [TIFF OMITTED] T6580A.083
    
    [GRAPHIC] [TIFF OMITTED] T6580A.084
    
    [GRAPHIC] [TIFF OMITTED] T6580A.085
    
    [GRAPHIC] [TIFF OMITTED] T6580A.086
    
    [GRAPHIC] [TIFF OMITTED] T6580A.087
    
    [GRAPHIC] [TIFF OMITTED] T6580A.088
    
    [GRAPHIC] [TIFF OMITTED] T6580A.089
    
    [GRAPHIC] [TIFF OMITTED] T6580A.090
    
    [GRAPHIC] [TIFF OMITTED] T6580A.091
    
    [GRAPHIC] [TIFF OMITTED] T6580A.092
    
    [GRAPHIC] [TIFF OMITTED] T6580A.093
    
    [GRAPHIC] [TIFF OMITTED] T6580A.094
    
    [GRAPHIC] [TIFF OMITTED] T6580A.095
    
    [GRAPHIC] [TIFF OMITTED] T6580A.096
    
    [GRAPHIC] [TIFF OMITTED] T6580A.097
    
    [GRAPHIC] [TIFF OMITTED] T6580A.098
    
    [GRAPHIC] [TIFF OMITTED] T6580A.099
    
    [GRAPHIC] [TIFF OMITTED] T6580A.100
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
